App. 1
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 19-1775
-----------------------------------------------------------------------

OWNER OPERATOR INDEPENDENT DRIVERS
ASSOCIATION, INC.; NATIONAL MOTORIST
ASSOCIATION; MARION L. SPRAY;
B.L. REEVER TRANSPORT, INC.;
FLAT ROCK TRANSPORTATION, LLC;
MILLIGAN TRUCKING, INC.*; FRANK SCAVO;
LAURENCE G. TARR,
Appellants
v.
PENNSYLVANIA TURNPIKE COMMISSION;
LESLIE S. RICHARDS, in her individual capacity
and her official capacities as Chair of the PTC and
Secretary of the Department of Transportation;
WILLIAM K. LIEBERMAN, in his individual capacity
and his official capacity as Vice Chair of the PTC;
BARRY T. DREW, in his individual capacity and his
official capacity as Secretary-Treasurer of the PTC;
PASQUALE T. DEON, SR., in his individual capacity
and his official capacity as Commissioner of the PTC;
JOHN N. WOZNIAK, in his individual capacity and
his official capacity as Commissioner of the PTC;
MARK P. COMPTON, in his individual capacity and
his official capacity as Chief Executive Officer of the
PTC; CRAIG R. SHUEY, in his individual capacity
and his official capacity as Chief Operating Officer

App. 2
of the PTC; TOM WOLF, Governor of the
Commonwealth of Pennsylvania, in his individual
capacity and his official capacity as Governor
*(Amended as per the Clerk’s 04/25/19 Order)
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 1-18-cv-00608)
District Judge: Hon. Yvette Kane
-----------------------------------------------------------------------

Argued July 9, 2019
-----------------------------------------------------------------------

Before: SHWARTZ, KRAUSE, and
FUENTES, Circuit Judges.
(Filed: August 13, 2019)
Melissa A. Chapaska
Kevin J. McKeon
Dennis Whitaker
Hawke McKeon & Sniscak
100 North Tenth Street
P.O. Box 1778
Harrisburg, PA 17101
Paul D. Cullen, Jr.
Paul D. Cullen, Sr. [ARGUED]
Kathleen B. Havener
The Cullen Law Firm
1101 30th Street, N.W.
Suite 300
Washington, DC 20007

App. 3
Counsel for Appellants Owner Operator
Independent Drivers Association, Inc.,
National Motorist Association, Marion L.
Spray, B.L. Reever Transport Inc., Flat Rock
Transportation LLC, Milligan Trucking Inc.,
Frank Scavo, and Laurence G. Tarr
Robert L. Byer [ARGUED]
Leah A. Mintz
Lawrence H. Pockers
Brian J. Slipakoff
Duane Morris
30 South 17th Street
United Plaza
Philadelphia, PA 19103
Counsel for Appellees Pennsylvania Turnpike
Commission; Leslie S. Richards, in her
individual capacity and her official capacities
as Chair of the PTC and Secretary of the
Department of Transportation; William K.
Lieberman, in his individual capacity and
his official capacity as Vice Chair of the PTC;
Barry Drew, in his individual capacity and
his official capacity as Secretary-Treasurer
of the PTC; Pasquale T. Deon, Sr., in his
individual capacity and his official capacity
as Commissioner of the PTC; John N. Wozniak,
in his individual capacity and his official
capacity as Commissioner of the PTC;
Mark P. Compton, in his individual capacity
and his official capacity as Chief Executive
Officer of the PTC; and Craig R. Shuey, in his
individual capacity and his official capacity
as Chief Operating Officer of the PTC

App. 4
Arleigh P. Helfer, III
Bruce P. Merenstein [ARGUED]
Schnader Harrison Segal & Lewis
1600 Market Street
Suite 3600
Philadelphia, PA 19103
Counsel for Appellees Leslie S. Richards,
in her individual capacity and her official
capacities as Chair of the PTC and Secretary
of the Department of Transportation, and
Tom Wolf, Governor of the Commonwealth
of Pennsylvania, in his individual capacity
and his official capacity as Governor
Alex M. Lacey
Robert M. Linn
Robyn A. Shelton
Cohen & Grigsby
625 Liberty Avenue
5th Floor
Pittsburgh, PA 15222
Counsel for Appellee William K. Lieberman,
in his individual capacity and his official
capacity as Vice Chair of the PTC
Matthew H. Haverstick
Shohin H. Vance
Kleinbard
Three Logan Square
1717 Arch Street, 5th Floor
Philadelphia, PA 19103
Counsel for Appellee Craig R. Shuey, in his
individual capacity and his official capacity
as Chief Operating Officer of the PTC

App. 5
Thomas M. Fisher
Office of Attorney General of Indiana
302 West Washington Street
Indianapolis, IN 46204
Counsel for Amicus Curiae the State of Indiana
Miguel A. Estrada
Gibson Dunn & Crutcher
1050 Connecticut Avenue, N.W.
Washington, DC 20036
Counsel for Amicus Curiae ITR Concession
Company LLC
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

SHWARTZ, Circuit Judge.
Plaintiffs are individuals and members of groups
who pay tolls to travel on the Pennsylvania Turnpike.1
They allege that Pennsylvania state entities and officials (“Defendants”) have violated the dormant Commerce Clause and their right to travel.2 Specifically,

1

Plaintiffs are Owner Operator Independent Drivers Association, Inc.; National Motorist Association; Marion L. Spray; B.L.
Reever Transport, Inc.; Flat Rock Transportation, LLC; Milligan
Trucking, Inc.; Frank Scavo; and Laurence G. Tarr.
2
Defendants are the Pennsylvania Turnpike Commission
(“PTC”), William K. Lieberman, Vice Chair of the PTC; Barry
Drew, Secretary-Treasurer of the PTC; Pasquale T. Deon, Sr., and
John N. Wozniak, Commissioners of the PTC; Mark P. Compton,
Chief Executive Officer of the PTC; Craig R. Shuey, Chief Operating Officer of the PTC; Pennsylvania Governor Tom Wolf; and

App. 6
Plaintiffs assert that Defendants have set exorbitantly
high tolls for use of the Pennsylvania Turnpike
and that the amounts collected exceed the costs to operate the Turnpike. They contend the extra funds
are being used for projects that disproportionately benefit local interests and that the high tolls deter nonPennsylvanians from using the Turnpike.
Because Congress has permitted state authorities,
such as Defendants, to use the tolls for non-Turnpike
purposes, the collection and use of the tolls do not
implicate the Commerce Clause. Moreover, because
Plaintiffs have not alleged that their right to travel to,
from, and within Pennsylvania has been deterred,
their right to travel has not been infringed. Therefore,
we will affirm the District Court’s order dismissing the
complaint.
I
A
The Pennsylvania Turnpike is part of a 552-mile
highway system that crosses Pennsylvania from New
Jersey to Ohio. The Pennsylvania Turnpike Commission (“PTC”) sets and collects Turnpike tolls.
In 2007, the Pennsylvania legislature enacted Act
44, which, among other things, permitted the PTC to
increase tolls and required the PTC to make annual
payments for a fifty-year period to the Pennsylvania
Leslie S. Richards, who is both the Chair of the PTC and Secretary of the Pennsylvania Department of Transportation.

App. 7
Department of Transportation (“PennDOT”) Trust
Fund. See 75 Pa. Cons. Stat. § 8915.3. In 2013, Act 89
amended Act 44, as amended “Act 44/89.” Act 89 continued to permit toll increases but lowered the annual
payments to the PennDOT Trust Fund.
After Act 44 went into effect, the PTC announced
a 25% toll increase and from 2009 through 2016, tolls
were increased annually by more than 10% for cash
customers and 5.75% for customers using an electronic
toll transmitter known as an EZ-Pass. Plaintiffs assert
that since the enactment of Act 44, tolls have increased
more than 200% and that the current cost for the heaviest vehicles to cross the 359-mile portion of the Pennsylvania Turnpike that spans from New Jersey to Ohio
exceeds $1800. Pennsylvania’s Auditor General found
that PTC’s annual “costly toll increases place an undue
burden” on Pennsylvanians, opined that “the average
turnpike traveler will be deterred by the increased cost
and seek alternative toll-free routes,” App. 88 (emphasis omitted) (quoting September 2016 Performance
Audit of the PTC), and recommended that the PTC
seek legislative relief from its Act 44/89 payment obligations.
Tolls are PTC’s largest revenue source and
amount to 166-215% of the costs to maintain and operate the Turnpike. Simply put, the amount of the tolls
collected exceeds the amount it costs to run the Turnpike. The excess tolls are deposited into the PennDOT
Trust Fund, which are, in turn, transferred to four different programs: (1) operating programs under 74 Pa.
Cons. Stat. § 1513, which include asset maintenance

App. 8
costs and expenses for public passenger transport; (2)
the multimodal transportation fund under 74 Pa. Cons.
Stat. § 2104, which covers aviation, freight and passenger rail, and port and waterway projects; (3) the asset
improvement program under 74 Pa. Cons. Stat. § 1514
for financial assistance for the improvement, replacement, or expansion of capital projects; and (4) programs of statewide significance under 74 Pa. Cons.
Stat. § 1516, which include disability programs, rail
and bus services, community transportation, Welfareto-Work programs, and research projects. Act 44/89 is
designed to generate $450 million annually for PennDOT from 2011 through 2022.3 More than ninety percent of Act 44/89 payments—approximately $425
million annually—benefit “non-Turnpike road and
bridge projects and transit operations.” App. 78. Plaintiffs allege that many of these “programs have no functional relationship to the Pennsylvania Turnpike,”
including, for instance, the “[c]onstruction of an underpass” and a “[s]idewalk installation.”4 App. 81-82.
3

Act 44/89 payments will generate $50 million annually for
PennDOT from 2023 through 2057.
4
Plaintiffs allege that Act 44/89 funds have been used for
various programs across the state including:
a. Development of Three Crossings, a mixed-use development consisting of residential units, office space,
and a transportation facility with vehicle and bicycle
parking, bicycle repair, electric-vehicle charging stations, kayak storage, and transit station in Pittsburgh
(Allegheny County);
b. Construction of an underpass under U.S. 22, connecting the Lower Trail with Canoe Creek State Park
(Blair County);

App. 9

c. Rehabilitation of nine stone-arch bridges along the
SEPTA regional railway line (Regional project);
d. Replacement of the roof at Collier Bus Garage
(Allegheny County);
e. Sidewalk installation along North Main Street in
Yardley (Bucks County);
f. Installation of approximately 1,800 feet of ADAcompliant sidewalk along the south side of Union Deposit Road between Shield Street and Powers Avenue
at the Union Square Shopping Center in Susquehanna
(Dauphin County);
g. Extension of internal road, including final design,
survey, permit modifications, bid documents, construction, storm water, street lights, project administration,
legal expenses, audit expenses, and contingencies in
Windy Ridge Business and Technology Park (Indiana
County);
h. Improvements to roadways in 12,000 acres of
parks, including widening shoulders, paving, signage
installation, and bicycle marking in the Allegheny
County Parks;
i. Addition of eight curb ramps, new asphalt, four decorative crosswalks and a surface sign at an intersection
in Latrobe (Westmoreland County);
j. Phase II Construction of Erie Metropolitan Transportation Authority’s Maintenance and Paratransit
Bus Storage Facility (Erie County);
k. Improvements to the Erie International Airport
terminal building (Erie County);
l. Creation of a multi-use trail and installing associated signage from the West End neighborhood linking
existing bike routes to a multiuse path that connects to
The Pennsylvania State University (Centre County);
m. Creation of a pedestrian island at the intersection
of Park Avenue and McKee Street in State College to
provide a safer crossing for pedestrians and cyclists

App. 10
Plaintiffs concede that a federal statute, the Intermodal Surface Transportation Efficiency Act of 1991
(“ISTEA”), Pub. L. No. 102-240, 105 Stat. 1914 (codified
as amended in scattered titles), authorizes these types
of projects. Nonetheless, they assert that the toll costs
burden interstate commerce and “discourag[e] both
business and private travelers from using the Turnpike.” App. 99.
B
Plaintiffs brought suit on behalf of a putative class
alleging violations of the dormant Commerce Clause
and their right to travel.5 Defendants moved to dismiss
and accommodate the accessibility needs of vision-impaired residents (Centre County);
n. Construction of a new two-way industrial access
road, realigning a portion of the Nittany & Bald Eagle
Railroad Main Line to accommodate the access road,
and constructing new sidings and operating tracks for
First Quality Tissue’s two existing facilities and a proposed new facility (Clinton County);
o. Construction of an 85-car unit train loop track in
the Keystone Regional Industrial Park to connect with
an existing Norfolk Southern main line track and serve
a Deerfield Farms Service grain elevator facility in
Greenwood (Crawford County).
App. 81-84.
5
The Complaint seeks (1) a declaratory judgment that PTC’s
tolls and the provisions of Act 44/89 that direct the PTC to make
payments to PennDOT violate the dormant Commerce Clause
and the constitutional right to travel, (2) a preliminary and permanent injunction enjoining both the excess tolls and payments
under Act 44/89, and (3) a judgment against Defendants ordering
the refund of excess toll payments.

App. 11
and Plaintiffs moved for partial summary judgment on
the issue of liability.
The District Court granted Defendants’ motions to
dismiss6 and denied Plaintiffs’ motion for summary
judgment. See generally Owner Operator Indep. Drivers Ass’n v. Pa. Tpk. Comm’n, No. 1:18-cv-00608, ___
F.Supp. 3d ___, 2019 WL 1493182 (M.D. Pa. Apr. 4,
2019). The Court applied the test set forth in Pike v.
Bruce Church, Inc., 397 U.S. 137 (1970), and held that,
because the alleged burdens from the tolls are equally
imposed on both in- and out-of-state drivers, they are
general burdens on commerce that do not violate the
dormant Commerce Clause, Owner Operator, 2019 WL
1493182, at *22. The Court also held that Plaintiffs
failed to state a claim that their right to interstate
travel was infringed because they asserted only that
the toll structure deterred Turnpike travel. Id. at *24.

6

Certain Defendants also moved in the alternative for summary judgment. Although the District Court outlined the legal
standards for both Federal Rules of Civil Procedure 12(b)(6) and
56, Owner Operator Indep. Drivers Ass’n v. Pa. Tpk. Comm’n,
No. 1:18-cv-00608, ___ F.Supp. 3d ___, 2019 WL 1493182, at *8-9
(M.D. Pa. Apr. 4, 2019), and, at the outset of its dormant Commerce Clause analysis, referenced “undisputed” facts, id. at *18,
it applied the Rule 12(b)(6) standard, concluding that Plaintiffs’
“factual allegations do not support a claim for violations of the
dormant Commerce Clause or the constitutional right to travel,”
and granting “the PTC Defendants’ and Commonwealth Defendants’ motions to dismiss,” id. at *24. We therefore review the
District Court’s opinion granting a motion to dismiss. See infra
note 7.

App. 12
II7
A
1
The Commerce Clause confers upon Congress the
power “[t]o regulate Commerce . . . among the several
States.” U.S. Const. art. I, § 8, cl. 3. By negative implication, Congress’s authority to regulate commerce
prohibits the states from enacting “laws that unduly
restrict interstate commerce.” Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S. Ct. 2449, 2459 (2019).
This “dormant Commerce Clause” bars states from discriminating against or unduly burdening interstate
commerce, for instance by enacting protectionist regulations that give in-state businesses an advantage over
out-of-state businesses, see, e.g., Pike, 397 U.S. at 14445, or by assessing fees that “threaten the free movement of commerce by placing a financial barrier
around the [s]tate,” Am. Trucking Ass’ns, Inc. v.
Scheiner, 483 U.S. 266, 284 (1987).

7

The District Court had jurisdiction under 28 U.S.C. §§ 1331
and 1343. We have jurisdiction under 28 U.S.C. § 1291.
Our review of the District Court’s dismissal of Plaintiffs’ complaint is plenary. Burtch v. Milberg Factors, Inc., 662 F.3d 212,
220 (3d Cir. 2011). To withstand a motion to dismiss, a complaint
must allege a claim “that is plausible on its face” when accepting
all the factual allegations as true and drawing every reasonable
inference in favor of the nonmoving party. Connelly v. Lane Constr. Corp., 809 F.3d 780, 786 & n.2 (3d Cir. 2016) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). In reviewing a complaint,
we disregard conclusory assertions and bare recitations of the elements. Id. at 786 n.2.

App. 13
Congress, however, may authorize a state to take
actions that burden interstate commerce. S. Dakota v.
Wayfair, Inc., 138 S. Ct. 2080, 2089 (2018). “[W]hen
Congress exercises its power to regulate commerce by
enacting legislation, the legislation controls.” Id. Thus,
where Congress has spoken and state or local governments take actions that are “specifically authorized by
Congress,” those actions are “not subject to the Commerce Clause even if [they] interfere[ ] with interstate
commerce.”8 White v. Mass. Council of Constr. Emp’rs,
Inc., 460 U.S. 204, 213 (1983) (citation omitted). In
short, as applied here, if Congress authorizes an action, such as using tolls for non-toll road purposes, then
“no dormant Commerce Clause issue is presented.” Id.
To determine whether Congress has authorized
such action and thereby “removed [it] from the reach
of the dormant Commerce Clause,” we must consider
whether its intent is “unmistakably clear.” S.-Cent.
Timber Dev., Inc. v. Wunnicke, 467 U.S. 82, 91 (1984);
see Ne. Bancorp, Inc. v. Bd. of Governors of Fed. Reserve Sys., 472 U.S. 159, 174 (1985) (“When Congress
so chooses, state actions which it plainly authorizes are
invulnerable to constitutional attack under the Commerce Clause.”). While “congressional intent and policy
to insulate state legislation from Commerce Clause
attack [must be] ‘expressly stated,’ ” “[t]here is no talismanic significance to the phrase ‘expressly stated.’ ”
8

Absent such legislation, “Congress has left it to the courts
to formulate the rules to preserve the free flow of interstate commerce.” Wayfair, 138 S. Ct. at 2090 (internal quotation marks and
citations omitted).

App. 14
S.-Cent. Timber, 467 U.S. at 90-91. “ ‘Expressly stated’
. . . merely states one way of meeting the requirement
that for a state regulation to be removed from the
reach of the dormant Commerce Clause, congressional
intent must be unmistakably clear.” Id. at 91. That is,
Congress “need not expressly state that it is authorizing a state to engage in activity that would otherwise
violate the [d]ormant Commerce Clause.” Am. Trucking Ass’ns, Inc. v. N.Y. State Thruway Auth., 886 F.3d
238, 245 (2d Cir. 2018). Rather, Congress “need only
clearly allow the state to engage in such activity.” Id.
2
Defendants contend that Congress, through
ISTEA, specifically authorized states to enact legislation that allocates highway tolls for purposes unrelated to the toll road. If a state’s actions fall within the
scope of Congress’s authorization, then the dormant
Commerce Clause does not apply. We therefore begin
by analyzing whether ISTEA authorizes Defendants’
conduct.9
Under ISTEA, “Congress sought to foster a National Intermodal Transportation System, consisting
9

Principles of constitutional avoidance counsel us to first address whether a statutory ground resolves the case, and thereby
renders unnecessary the need to answer the “constitutional question” here of whether the Defendants’ toll collection and allocation
place an undue burden on interstate commerce in violation of the
dormant Commerce Clause. Slack v. McDaniel, 529 U.S. 473, 485
(2000) (quoting Ashwander v. Tenn. Valley Auth., 297 U.S. 288,
347 (1936) (Brandeis, J., concurring)).

App. 15
of all forms of transportation in a unified, interconnected manner.” Am. Trucking, 886 F.3d at 242 (internal quotation marks omitted). Before ISTEA,
“Congress enacted the Surface Transportation Assistance Act (‘STAA’),” which provided “federal financial
support” for toll roads. Id. at 241. STAA required that
for state public authorities maintaining highways “to
receive federal financial aid,” they “had to discontinue
levying tolls once they had collected sufficient revenues to retire outstanding bonds” that funded the
highways. Id. “If those authorities failed to make a toll
road free once they had collected sufficient tolls to retire those bonds, STAA required them to repay the federal government for the financing it had provided
them.” Id. at 241-42. ISTEA, however, “freed states
from their obligation under the STAA to repay the federal government should they continue to collect tolls
after retiring outstanding debts, and granted them
greater flexibility to operate toll facilities and use toll
revenues for a variety of transportation projects.” Id. at
242. To that end, ISTEA “broadened the list of purposes for which states could use federal funds.” Id.
ISTEA regulates the use of “toll revenues” by “[a]
public authority,” such as the PTC,10 and enumerates
the categories for which toll revenues may be used. 23
U.S.C. § 129(a)(3)(A). ISTEA provides that the public

10

A “public authority” includes a state “instrumentality with
authority to finance, build, operate or maintain toll . . . facilities.”
23 U.S.C. § 101(a)(21).

App. 16
authority “shall ensure that all toll revenues received
from operation of the toll facility are used only for”:
•

debt service;

•

“a reasonable return on investment of
any private person financing the project”;

•

“any costs necessary” to improve, operate,
and maintain the toll facility; and

•

payments to private parties (where applicable) “if the toll facility is subject to a
public-private partnership agreement.”

Id. § 129(a)(3)(A)(i)-(iv). In addition, if “the public authority certifies annually that the tolled facility is being adequately maintained,” ISTEA permits the public
authority to use toll revenues for “any other purpose
for which Federal funds may be obligated by a State
under [title 23].” Id. § 129(a)(3)(A)(v). In short, ISTEA
allows a public authority to use toll revenues for nontoll road projects.
Pursuant to title 23, federal funds “may be obligated” for several broad categories of items, id., and at
least two statutory subsections authorize expenditures
unrelated to the toll road itself. For example, ISTEA
authorizes states to construct, among other things,
“transit capital projects eligible for assistance under
chapter 53 of title 49.” Id. § 133(b)(1)(C). Subject to
certain conditions, capital projects may include “walkways,” “pedestrian and bicycle access to [ ] public
transportation facilit[ies],” and the “construction, renovation, and improvement of intercity bus and

App. 17
intercity rail stations and terminals.” 49 U.S.C.
§ 5302(3)(G)(v)(VI)-(VIII).
Title 23 also authorizes states to build “[a]ny type
of project eligible under this section as in effect on the
day before the date of enactment of the [Fixing America’s Surface Transportation] Act, including projects
described under [§] 101(a)(29) as in effect on such day.”
23 U.S.C. § 133(b)(15). Before Congress enacted the
Fixing America’s Surface Transportation Act in 2015,
§ 101(a)(29) listed various projects under the phrase
“[t]ransportation alternatives,” including the
[c]onstruction . . . of on-road and off-road trail
facilities for pedestrians, bicyclists, and other
nonmotorized forms of transportation, including sidewalks, bicycle infrastructure, pedestrian and bicycle signals . . . to achieve
compliance with the Americans with Disabilities Act of 1990 (42 U.S.C. [§] 12101 et seq.).
23 U.S.C. § 101(a)(29)(A) (2012). “Transportation alternatives” also include the “[c]onstruction of turnouts,
overlooks, and viewing areas.” Id. § 101(a)(29)(D)
(2012).
Through ISTEA, Congress expressed its “unmistakably clear” intent that the Defendants could use toll
revenues for non-toll road projects. S.-Cent. Timber,
467 U.S. at 91. Congress’s authorization that toll revenues be used for purposes other than maintaining and
operating the toll road, and servicing its debt, necessarily envisions that a public authority can collect
funds that exceed a toll road’s costs before it can spend

App. 18
them. See 23 U.S.C. § 129(a)(3)(A)(v). Thus, ISTEA contemplated that tolls exceeding the amount needed to
fund a toll road would be collected and spent on nontoll road projects.
Plaintiffs argue that Congress could not have contemplated that a state would increase its tolls by over
200% to fund non-toll road projects. Plaintiffs ignore
the text of ISTEA. Nowhere in the statute, including
§ 129(a)(3)(A)(v), did Congress cap the amount of toll
money a state could raise. See Am. Trucking, 886 F.3d
at 246 (holding that “a plain reading of [ISTEA] reveals that Congress meant to permit [a public authority] to continue collecting tolls of whatever amount
without having to repay federal funds—something
that it was previously barred from doing once it satisfied its debt obligations” (emphasis omitted)). As we already noted, the fact that Congress allowed states to
use toll money on non-toll road projects presupposes
that funds exceeding the amount needed for the toll
road would be collected.
Nor is there merit to Plaintiffs’ argument that
ISTEA speaks only to “use” of excess toll revenue, not
to “collection” or “generation” of toll revenue. As a matter of common sense, however, Congress’s authorization of “use” assumes there is toll revenue collected in
the first place to be used, and contrary to Plaintiffs’
suggestion that Congress was speaking only to “nickels
and dimes” left over each year due to fluctuating Turnpike costs, Oral Arg. Tr. at 18, 77, Congress identified a
host of big-ticket items that excess tolls could be spent
to construct, including “highways, bridges, tunnels, . . .

App. 19
ferry boats[,] and [ferry] terminal facilities.” 23 U.S.C.
§ 133(b)(1). This further shows that ISTEA did not
limit the amount of funds the PTC could collect and
spend on non-Turnpike projects.
Plaintiffs concede that the non-Turnpike related
projects listed in their complaint for which toll funds
were used fall within ISTEA’s scope, but contend that
Defendants failed to satisfy one of ISTEA’s conditions
for using the toll funds for non-toll road purposes. As
noted earlier, ISTEA requires that the public authority “certif[y] annually that the toll facility is being
adequately maintained” before any excess funds may
be used for non-toll road projects. 23 U.S.C.
§ 129(a)(3)(A)(v). Defendants conceded before the District Court that they did not submit the required annual certifications. Their failure to comply with this
condition, however, does not diminish the fact that
Congress has legislated in the area of interstate commerce at issue and blessed the use of tolls for non-toll
road purposes.11 In other words, the presence or

11

Moreover, Plaintiffs’ attempt to preclude Defendants from
relying on § 129(a)(3)(A)(v)’s spending authority because they did
not fulfill the statute’s certification requirements also fails because the statute does not provide a private right of action. See
Endsley v. City of Chicago, 230 F.3d 276, 280 (7th Cir. 2000). Not
only is there no private right of action, but Congress specified its
own remedy here for the failure to abide by this condition. That
remedy is vested in the Secretary of Transportation, who “may
require the public authority to discontinue collecting tolls” if she
“concludes that a public authority has not complied with the limitations on the use of revenues described in [§ 129(a)(3)(A)].” 23
U.S.C. § 129(a)(3)(C). As it is Congress’s prerogative to authorize

App. 20
absence of the annual certification does not otherwise
affect Congress’s “unambiguous intent to authorize [a
state authority, such as the PTC,] to allocate excess toll
funds” to non-toll road projects. Am. Trucking, 886 F.3d
at 247.
In sum, “[t]he text is clear”: Congress has authorized the states, including the Commonwealth of Pennsylvania, to generate and use such tolls to fund the
type of projects listed in Plaintiffs’ complaint.12 Id. As
a result, the collection and use of the tolls to fund the
challenged expenditures does not violate the dormant
Commerce Clause, and the District Court properly dismissed Plaintiffs’ dormant Commerce Clause claim.13
B
Plaintiffs’ claim that the tolls violate their right to
travel also fails. “The constitutional right to travel
from one State to another, and necessarily to use the
highways and other instrumentalities of interstate
the use of funds at issue and it has done so, we need not adjudicate the consequence for the failure to certify.
12
Because we hold that Congress has authorized Defendants
to engage in the challenged activity, we need not decide whether
Pike, 397 U.S. 137, or Evansville-Vanderburgh Airport Auth.
Dist. v. Delta Airlines, Inc., 405 U.S. 707 (1972), or some other
test applies to a dormant Commerce Clause challenge to a toll.
13
Although the District Court declined to decide whether
“Congress has specifically authorized the expenditure of toll revenues contemplated by Act 44/89,” Owner Operator, 2019 WL
1493182, at *22 n.23, we may affirm its order dismissing Plaintiffs’ complaint “on any ground supported by the record,”
Tourscher v. McCullough, 184 F.3d 236, 240 (3d Cir. 1999).

App. 21
commerce in doing so, occupies a position fundamental
to the concept of our Federal Union.” United States v.
Guest, 383 U.S. 745, 757 (1966). We have observed that
the right to travel includes “the right of a citizen of one
State to enter and to leave another State,” Connelly v.
Steel Valley Sch. Dist., 706 F.3d 209, 213 (3d Cir. 2013),
as amended (May 10, 2013) (quoting Saenz v. Roe, 526
U.S. 489, 500 (1999)), as well as a right to intrastate
travel, see Lutz v. City of York, 899 F.2d 255, 268 (3d
Cir. 1990), though the exact “contours” of that right remain elusive, see United States v. Baroni, 909 F.3d 550,
588 (3d Cir. 2018), cert. granted Kelly v. United States,
No. 18-1059, 2019 WL 588845 (U.S. June 28, 2019).
To determine whether a state law “sufficiently impinges upon the right to travel or migrate to trigger
strict scrutiny, [we look] to see whether the challenged
law’s [1] ‘primary objective’ is to impede interstate
travel; [2] whether it ‘penalize[s] the exercise of that
right;’ or [3] whether it ‘actually deters such travel.’ ”
Maldonado v. Houstoun, 157 F.3d 179, 186 (3d Cir.
1998) (fourth alteration in original) (quoting Att’y Gen.
of N.Y. v. Soto-Lopez, 476 U.S. 898, 903 (1986) (plurality
opinion)).
Plaintiffs do not assert that the toll penalizes or
impedes travel. Rather, Plaintiffs allege that “the average turnpike traveler will be deterred by the increased
cost and seek alternative toll-free routes[,]” App. 88
(quotation marks and citation omitted), and that the
tolls “discourag[e] both business and private travelers
from using the Turnpike,” App. 99. Thus, we must decide whether Plaintiffs have stated a claim that the

App. 22
tolls “actually deter[ ]” interstate or intrastate travel.
Soto-Lopez, 476 U.S. at. 903.
“[B]urdens on a single mode of transportation do
not implicate the right to interstate travel.”14 Miller v.
Reed, 176 F.3d 1202, 1205 (9th Cir. 1999). Moreover,
“[b]urdens placed on travel generally, such as gasoline
taxes, or minor burdens impacting interstate travel,
such as toll roads, do not constitute a violation of ” the
right to travel. Id. Put differently, “[m]inor restrictions
on travel,” including delays and costs, “simply do not
amount to the denial of a fundamental right that can
be upheld only if the Government has a compelling justification.” Cramer v. Skinner, 931 F.2d 1020, 1031 (5th
Cir. 1991); see also Lutz, 899 F.2d at 269 (“[T]he right
to travel cannot conceivably imply the right to travel
whenever, wherever and however one pleases—even
on roads specifically designed for public travel.”). “A
law does not actually deter travel merely because it
makes it somewhat less attractive for a person to
travel interstate,” Pollack v. Duff, 793 F.3d 34, 46 (D.C.
Cir. 2015) (internal quotation marks omitted), or it is
not “the most convenient form of travel,” Town of
Southold v. Town of E. Hampton, 477 F.3d 38, 54 (2d
Cir. 2007) (internal quotation marks omitted); see Kansas v. United States, 16 F.3d 436, 442 (D.C. Cir. 1994)
(holding that law channeling interstate air travel

14

States may not impose burdens on all modes of interstate
travel. See Crandall v. Nevada, 73 U.S. 35, 39-40, 46 (1867) (holding unconstitutional a state tax imposed on all persons exiting the
state or passing through its borders).

App. 23
through new airport requiring a longer drive had at
most “negligible” or “trivial” effect on right to travel).
Because Plaintiffs allege only that the increased
tolls have caused and will continue to cause Turnpike
users to switch to non-toll roads in the future,15 and not
that interstate or intrastate travel has been or will be
deterred,16 they have not stated a claim that their right
to travel has been infringed. Therefore, the District
Court properly dismissed Plaintiffs’ right to travel
claim.
III
For the foregoing reasons, we will affirm.

15

In Wallach v. Brezenoff, we applied Evansville to evaluate
plaintiffs’ assertion that an increase in tolls on all of the bridges
and tunnels from New Jersey to New York City violated their
right to travel. 930 F.2d 1070, 1072 (3d Cir. 1991). The Evansville
Court observed that “facilit[ies] provided at public expense [such
as highways] aid[ ] rather than hinder[ ] the right to travel,” and
therefore requiring users to “pay a reasonable fee” is constitutional. 405 U.S. at 714. We need not engage in such analysis or
determine, as Plaintiffs urge us to do, whether Evansville supplies the exclusive test of constitutionality for certain right to
travel claims because Plaintiffs here acknowledge that there are
non-toll routes to travel in and out of Pennsylvania.
16
Plaintiffs seek to rely on Defendant Wolf ’s statements on
the radio that the tolls deter travel on the Turnpike, but those
statements are outside of the pleadings and thus are irrelevant to
whether the complaint states a claim.

App. 24
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
:
:
: No. 1:18-cv-00608
: (Judge Kane)
:
v.
:
PENNSYLVANIA TURNPIKE :
:
COMMISSION, et al.,
Defendants
:
OWNER OPERATOR
INDEPENDENT DRIVERS
ASSOCIATION, INC., et al.,
Plaintiffs

MEMORANDUM
(Filed Apr. 4, 2019)
In this action members of the motoring public
who routinely access the Pennsylvania Turnpike (the
“Turnpike”) for business and personal travel have
joined together in challenging Turnpike tolls that are
alleged to be increasingly disproportionate to services
rendered. Plaintiffs allege that the Pennsylvania statutory scheme permitting this inequity (“Act 44/89”),
first enacted in 2007, violates the dormant Commerce
Clause of the United States Constitution and their
constitutional right to travel. Specifically, Plaintiffs
complain that in violation of the Constitution, Act 44/89
authorizes and directs the Pennsylvania Turnpike
Commission (“PTC”) to collect user fees with no regard
to Turnpike operating costs and to redistribute those
funds to the Pennsylvania Department of Transportation (“PennDOT”) for projects across the Commonwealth
that are of no benefit to the paying Turnpike motorist.

App. 25
Plaintiffs in this case are: Owner Operator Independent Drivers Association, Inc. (“OOIDA”), National
Motorists Association (“NMA”), Marion L. Spray (“Spray”),
B.L. Reever Transportation, LLC (“B.L. Reever”), Flat
Rock Transportation, LLC (“Flat Rock”), Milligan Trucking, Inc. (“Milligan Trucking”), Frank Scavo (“Scavo”),
and Laurence G. Tarr (“Tarr”), consisting of organizations, businesses, and individuals who are required to
pay and have paid tolls to the PTC for their use of the
Turnpike (collectively, “Plaintiffs”). (Doc. No. 1 ¶¶ 918.) Defendants are the PTC, William K. Lieberman,
Vice Chair of the PTC, Barry T. Drew, Secretary Treasurer of the PTC, Pasquale T. Deon, Sr., Commissioner
of the PTC, John N. Wozniak, Commissioner of the
PTC, Mark P. Compton, Chief Executive Officer of the
PTC, Craig R. Shuey, Chief Operating Officer of the
PTC (collectively, the “PTC Defendants”), Tom Wolf,
Governor of the Commonwealth of Pennsylvania, and
Leslie S. Richards, Chair of the PTC and Secretary
of PennDOT (collectively, the “Commonwealth Defendants”). (Id. ¶¶ 19-28.)
Before the Court are four motions to dismiss
Plaintiffs’ complaint filed by the PTC Defendants,1 the
Commonwealth Defendants, individual defendant Shuey,
and individual defendant Lieberman. (Doc. Nos. 49, 50,
52, and 53.) Also before the Court is Plaintiffs’ Motion
for Partial Summary Judgment on the issue of liability.
(Doc. No. 84.) The motions have been fully briefed and
1

The PTC Defendants’ motion is styled as a “Motion to Dismiss for Failure to State a Claim or, in the Alternative, Motion
for Summary Judgment.” (Doc. No. 52.)

App. 26
are ripe for disposition.2 For the reasons that follow,
the PTC and Commonwealth Defendants’ motions to
dismiss will be granted, the motions filed by individual
defendants Shuey and Lieberman will be denied as
moot, and Plaintiffs’ motion for partial summary judgment on the issue of liability will be denied.3
I.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY4
A. Act 44/89

The Turnpike is a toll road operated by the PTC,
running for 359 miles across the Commonwealth, beginning at the Ohio state line in Lawrence County and
ending at the New Jersey border at the Delaware River
Bridge in Bucks County. (Doc. No. 1 ¶ 41.) Including
the Northeastern Extension and Western Extension, the
Turnpike covers 552 miles. (Id.) Plaintiffs challenge
2

With the permission of the Court, the Pennsylvania Public
Transportation Association, Southeastern Pennsylvania Transportation Authority, and Port Authority of Allegheny County filed
a Brief Amicus Curiae in support of the Defendants’ motions.
(Doc. Nos. 57-1, 63.)
3
Plaintiffs also filed a “Motion to Certify Class and Appoint
Class Counsel” (Doc. No. 73), with supporting exhibits (Doc. No.
74), and brief (Doc. No. 75). By Order dated June 25, 2018, the
Court stayed all additional briefing on the motion until the
Court’s resolution of the pending dispositive motions. (Doc. No.
83.) In light of the Court’s resolution of the pending dispositive
motions, Plaintiffs’ “Motion to Certify Class and Appoint Class
Counsel” will be denied as moot.
4
The following factual background is taken from the allegations of Plaintiffs’ complaint (Doc. No. 1), as well as provisions of
the relevant statutes.

App. 27
the constitutionality of “excessive” tolls charged to named
Plaintiffs and members of a putative class of motor carriers, drivers, and motorists by the PTC for travel on
the Turnpike. (Doc. No. 1 ¶ 1.) The PTC is “an instrumentality of the Commonwealth.” 36 P.S. § 652d; Doc.
No. 1 ¶ 32. Pennsylvania law authorizes the PTC to fix
and adjust tolls to generate funds for services and facilities provided by the Commonwealth of Pennsylvania, as follows:
(a) Establishment and changes in toll
amounts. –
...
Tolls shall be fixed and adjusted as to provide funds at least sufficient with other
Revenues of the Pennsylvania Turnpike
System, if any, to pay all of the following:
...
(3) Amounts due to the department under 75 Pa. C.S. Ch. 89 (relating to Pennsylvania Turnpike) and pursuant to the
lease agreement under 75 Pa. C.S. § 8915.3
(relating to lease of Interstate 80; related
agreements).
...
(5) Any other amounts payable to the
Commonwealth or to the department.
74 Pa. C.S. § 8116(a); Doc. No. 1 ¶ 40. Plaintiffs’ complaint alleges that the PTC obtains almost the entirety
of its operating revenue from tolls. (Doc. No. 1 ¶ 86.)

App. 28
Plaintiffs allege that prior to the enactment of Act 44,
the PTC raised tolls on the Turnpike only five times in
the 64-year history of the Turnpike. (Id. ¶ 87.) Plaintiffs allege that in fiscal year ending May 31, 2015, 192
million vehicles traveled on the Turnpike, consisting
of approximately 166 million Class 1 Passenger vehicles and 26 million Class 2-9 commercial vehicles. (Id.
¶ 42.) Plaintiffs’ complaint estimates that trucks provide for about half of the annual toll revenues generated by the Turnpike, producing $443 million in toll
revenues for PTC in the 2016 fiscal year. (Id. ¶ 43.)
In 2007, the Pennsylvania General Assembly enacted a statute known as Act 44, amending portions of
the Pennsylvania Public Transportation Law (Title 74)
and the Vehicle Code (Title 75). See Act of July 18,
2007, P.L. 169, No. 44; Doc. No. 1 ¶ 44. Pursuant to the
statute, the PTC and PennDOT entered into a Lease
and Funding Agreement (“LAFA”), for a term of fifty
years. See 75 Pa. C.S. § 8915.3(1); Doc. No. 1 ¶ 45. Act
44, as originally enacted, required the PTC to make a
“[s]cheduled annual commission contribution” to PennDOT in the following amounts:
TABLE 1
Amount
$750,000,000
$850,000,000
$900,000,000
Annual Increases of 2.5%

Fiscal Year
2007-2008
2008-2009
2009-2010
2010-End

App. 29
75 Pa. C.S. § 8901; Doc. No. 1 ¶ 52. As alleged in Plaintiffs’ complaint, on December 4, 2008, the PTC issued
a press release regarding an imminent 25 percent toll
increase:
In December 2008, PTC’s CEO announced:
“The mission of [the Turnpike] has changed. . . .
For the first time, toll income isn’t only going
back into our toll roads, but helping to fund
infrastructure improvements in every corner
of Pennsylvania. . . . Toll increase proceeds
are mainly earmarked for non-Turnpike projects, so the funds generated by this [2009 toll]
increase will largely be used by PennDOT to
help finance off-Turnpike road and bridge projects and the state’s 74 mass-transit operations.”
(Doc. No. 1 ¶ 72.) In a December 30, 2008 press release
by the PTC, the PTC’s CEO stated that “[i]n fact, more
than 90 percent of the toll-increase proceeds will benefit non-Turnpike road and bridge projects and transit
operations.” (Id. ¶ 73.)
In 2013, the General Assembly again amended the
Public Transportation Law and Vehicle Code through
legislation known as Act 89. See Act of Nov. 25, 2013,
P.L. 974, No. 89; Doc. No. 1 ¶ 46. Act 89 amended the
PTC’s annual payment obligations to PennDOT. (Doc.
No. 1 ¶ 53.) Pursuant to Act 89, the PTC and PennDOT
amended the LAFA in 2014, entering into an Amended
Funding Agreement scheduled to terminate in October
of 2057. (Doc. No. 1 ¶ 47.)

App. 30
The statutory scheme established by Act 44/89
provides for annual payments made by the PTC to
PennDOT that currently total $450 million annually
through fiscal year 2022 and reduce to $50 million annually through 2057. See 75 Pa. C.S. §§ 8901; Doc. No.
1 ¶¶ 51-54. Under Act 44/89, the PTC’s annual payments to PennDOT through fiscal year 2057 will total
$9.65 billion. (Doc. No. 1 ¶ 55.) The PTC obtains the
funds necessary to make the annual Act 44/89 payments from Turnpike tolls and from bonds it issues,
the interest and principal of which are paid from tolls.
(Id. ¶¶ 59-61.) Plaintiffs’ complaint alleges that the
PTC’s Act 44/89 payments to PennDOT, interest, and
bond expenses are classified by the PTC as “nonoperating expenses.” (Id. ¶ 62.) As alleged by Plaintiffs,
the largest portion of PTC’s revenues derive from tolls,
which are pledged to secure the PTC’s outstanding
Senior Revenue Bonds, also known as Turnpike Revenue Bonds. (Id. ¶ 63.) Plaintiffs’ complaint alleges that,
according to the Commonwealth of Pennsylvania Auditor General’s 2016 Performance Audit of PTC (“2016
Performance Audit”), beginning in 2015, the PTC’s Act
44/89 payments have been solely dedicated to “nonhighway purposes,” including transit. (Id. ¶ 69.) The
PTC Act 44 Financial Plan Fiscal Year 2018 (“Act 44
Plan FY2018”), dated June 1, 2017, describes the
change in funding obligations imposed by Act 89 as
follows:
Act 89 substantially altered the Commission’s
funding obligations to PennDOT. While the
Commission’s aggregate payment obligation
remains at $450 million annually, beginning

App. 31
July 1, 2014, none of the payments are dedicated to highways and bridges. Instead, all
$450 million is allocated to support transit
capital, operating, multi-modal and other
non-highway programs.
(Doc. No. 1 ¶ 70) (quoting Act 44 Plan FY2018).
Pursuant to Act 44/89, PennDOT deposits the annual payments from the PTC into the Public Transportation Trust Fund (“PTTF”). See 74 Pa. C.S. § 1506(b)(1).
Monies from that fund are then distributed among four
programs: the “operating program,” the “asset improvement program,” the Multimodal Transportation Fund
(“MTF”), and “programs of statewide significance.” See
74 Pa. C.S. §§ 1506(e)(1)-(3), (6); Doc. No. 1 ¶ 71. The
statute directs that of the $450 million transferred to
the PTTF, $30 million must be deposited in the MTF.
74 Pa. C.S. § 1506(b)(1), (e)(6). The statute further provides that 95% of the funds transferred to the PTTF
annually from PennDOT, after the transfer of $30 million to the MTF, are utilized in connection with the
“asset improvement program.” Id. §§ 1514, 1506(e)(2).
Funds expended in connection with the “asset improvement program” are used for “improvement, replacement or expansion of capital projects” related to public
transportation. Id. § 1514(a)(1). The relevant statute provides that southeastern Pennsylvania’s public transportation agency, (“SEPTA”), and the Port Authority of
Allegheny County receive the majority of such funds,
with other mass transit agencies in the Commonwealth
receiving the remaining funds. See id. § 1514(e.1). The
statute provides that as to the “asset improvement

App. 32
program,” “[e]ligible applicants . . . may apply for financial assistance for improvement, replacement or
expansion of capital projects.” Id. § 1514. Such applicants may include “[a] local transportation organization,” Commonwealth agencies and instrumentalities,
and any “person responsible for coordinating community transportation program services.” Id. § 1514(a). A
“capital project” is defined as:
A system or component of a system for the
provision of public passenger transportation.
The term includes vehicles; infrastructure
power; passenger amenities; storage and maintenance buildings; parking facilities; the land
on which any capital project is situated and
the land needed to support it, whether owned
in whole or in part; overhaul of vehicles; debt
service; and the cost of issuance of bonds,
notes and other evidences of indebtedness
which a local transportation organization or
transportation company is permitted to issue
under any law of this Commonwealth.
Id. § 1503. A significantly smaller amount of the funds
transferred from the PTC to PennDOT and deposited
in the PTTF is dedicated to the “operating program”5
and “programs of statewide significance.”6 Id. §§ 1513,
1516, 1506(e)(1), (3).
5

The “operating program” funds “operating expenses,” defined as including expenses “for any purpose in furtherance of
public passenger transportation, including all state asset maintenance costs.” 74 Pa. C.S. §§ 1513(a)(2), 1503.
6
“Programs of statewide significance” encompass “public transportation programs, activities and services not otherwise fully

App. 33
The $30 million deposited in the MTF finances
transportation improvement programs including those
related to bicycle and pedestrian safety, aviation, rail
freight, passenger rail, and ports and waterways. Id.
§ 2104(a). “Eligible program[s]” under the MTF include:
“(1) A project which coordinates local land use with
transportation assets to enhance existing communities[,]
(2) A project related to streetscape, lighting, sidewalk
enhancement and pedestrian safety[,] (3) A project
improving connectivity or utilization of existing transportation assets[, and] (4) A project related to transitoriented development[.]” Id. § 2101.
Plaintiffs’ complaint alleges that some of the projects approved under these statutory provisions (and
funded with Act 44/89 toll revenues) include the following:
a.

Development of Three Crossings, a mixeduse development consisting of residential
units, office space, and a transportation
facility with vehicle and bicycle parking,
bicycle repair, electric-vehicle charging stations, kayak storage, and transit station
in Pittsburgh (Allegheny County);

b.

Construction of an underpass under U.S.
22, connecting the Lower Trail with Canoe Creek State Park (Blair County);

funded through the operating program, capital program or asset
improvement program,” specifically including the persons with
disabilities program, intercity passenger rail and bus services,
and community transportation capital and service stabilization,
among other items. Id. § 1516(a)(1)-(8).

App. 34
c.

Rehabilitation of nine stone-arch bridges
along the SEPTA regional railway line
(Regional project);

d.

Replacement of the roof at Collier Bus
Garage (Allegheny County);

e.

Sidewalk installation along North Main
Street in Yardley (Bucks County);

f.

Installation of approximately 1,800 feet
of ADA-compliant sidewalk along the south
side of Union Deposit Road between Shield
Street and Powers Avenue at the Union
Square Shopping Center in Susquehanna
(Dauphin County);

g.

Extension of internal road, including final
design, survey, permit modifications, bid
documents, construction, storm water, street
lights, project administration, legal expenses, audit expenses, and contingencies
in Windy Ridge Business and Technology
Park (Indiana County);

h.

Improvements to roadways in 12,000
acres of parks, including widening shoulders, paving, signage installation, and bicycle marking in the Allegheny County
Parks;

i.

Addition of eight curb ramps, new asphalt, four decorative crosswalks and a
surface sign at an intersection in Latrobe
(Westmoreland County);

j.

Phase II Construction of Erie Metropolitan
Transportation Authority’s Maintenance

App. 35
and Paratransit Bus Storage Facility (Erie
County);
k.

Improvements to the Erie International
Airport terminal building (Erie County);

l.

Creation of a multi-use trail and installing associated signage from the West
End neighborhood linking existing bike
routes to a multi-use path that connects
to The Pennsylvania State University
(Centre County);

m. Creation of a pedestrian island at the
intersection of Park Avenue and McKee
Street in State College to provide a safer
crossing for pedestrians and cyclists and
accommodate the accessibility needs of
vision-impaired residents (Centre County);
n.

Construction of a new two-way industrial
access road, realigning a portion of the
Nittany & Bald Eagle Railroad Main Line
to accommodate the access road, and constructing new sidings and operating tracks
for First Quality Tissue’s two existing facilities and a proposed new facility (Clinton County);

o.

Construction of an 85-car unit train loop
track in the Keystone Regional Industrial
Park to connect with an existing Norfolk
Southern main line track and serve a
Deer field Farms Service grain elevator
facility in Greenwood (Crawford County).

(Doc. No. 1 ¶ 84.)

App. 36
Plaintiffs assert that these funded programs have
“no functional relationship to the Pennsylvania Turnpike,” and that the PTC does not possess the financial
resources to make the Act 44/89 payments currently
and in the future without continually increasing toll
rates and debt. (Id. ¶¶ 84-85, 88.) Plaintiffs’ complaint
sets forth “Actual (through 2016) and Expected Toll Increase Resulting from Act 44/89” as contained in an
Auditor General Performance Audit as follows:
TABLE 2
Actual (through 2016) and Expected
Toll Increase Resulting from Act 44/89
Calendar Year 2009 through 2044
Year
2009
2010
2011
2012
2013
2014
2015
2016
2017
2018
2019
2020
2021
2022
2023
2024
2025
2026

Cash
25.0%
3.0%
10.0%
10.0%
10.0%
12.0%
5.0%
6.0%
6.0%
6.0%
6.0%
6.0%
5.0%
5.0%
5.0%
5.0%
5.0%
4.0%

E-Z Pass
25.0% 2027
3.0%
2028
3.0%
2029
2030
2.0%
2031
2.0%
2032
5.0%
2033
6.0%
2034
6.0%
2035
6.0%
2036
6.0%
2037
6.0%
2038
5.0%
2039
5.0%
2040
5.0%
2041
5.0%
2042
5.0%
2043
4.0%
2044

Cash
3.5%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%

E-Z Pass
3.5%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%
3.0%

App. 37
(Id. ¶ 90.) Plaintiffs’ complaint alleges that between
2006 and 2018, tolls paid by cash have increased over
200% for all classes of vehicles as follows:
TABLE 3
2006-2018 Increase in Tolls Mainline Roadway
East to West Complete Trip Delaware River
Bridge (NJ Border) to Gateway (Ohio Border)
Vehicle Gross
2006 Toll
Toll Class Vehicle Wt.
(1000 lb.)
1
1-7
$21.25
2
7-15
$31.25
3
15-19
$39.00
4
19-30
$45.25
5
30-45
$63.75
6
45-62
$80.75
7
62-80
$115.25
8
80-100
$150.75
9
Over 100 $861.00

2018 Toll Increase
(Cash)
$47.55
$69.85
$84.35
$101.15
$141.85
$177.90
$254.70
$333.85
$1,836.40

223%
223%
216%
223%
222%
220%
220%
221%
213%

(Id. ¶ 93.) Plaintiffs’ complaint further alleges that
each year since 2011, the PTC’s toll revenues have consisted of an amount over 200% of the cost to operate,
maintain, and upgrade the Turnpike as follows:
TABLE 4
PTC Cost of
Turnpike
Services
2007 $369,855,000
2008 $372,959,000
2009 $393,364,000

Gross Toll
Revenue
$617,616,000
$619,150,000
$638,244,000

Toll Revenue
as a % of Cost
of Services
166.99%
166.01%
162.25%

App. 38
2010
2011
2012
2013
2014
2015
2016
2017

$378,426,000
$359,870,000
$387,506,000
$412,484,000
$438,981,000
$459,780,000
$471,132,000
$517,103,000

$718,038,000
$763,856,000
$797,779,000
$821,740,000
$866,066,000
$934,252,000
$1,031,620,000
$1,114,976,000

189.74%
212.26%
205.88%
199.22%
197.29%
203.20%
218.97%
215.62%

(Doc. No. 1 ¶ 95.)
Based on these alleged numbers, Plaintiffs contend
that Turnpike tolls do not represent a “fair approximation of the use of the Turnpike facilities provided, they
are excessive in relation to the benefits conferred, and
they significantly exceed the costs incurred by PTC
to operate and maintain the Pennsylvania Turnpike
System.” (Id. ¶ 96.) Further, Plaintiffs maintain that
“PTC’s tolls unduly burden interstate commerce by
causing the Pennsylvania Turnpike System to be used
as a revenue-generating facility designed to underwrite expenses incurred by PennDOT in providing services and facilities throughout the Commonwealth
that have no functional relationship to the Pennsylvania Turnpike System.” (Id. ¶ 97.)
Plaintiffs’ complaint cites the 2016 Performance
Audit, which states that “[a]nnual costly toll increases
place an undue burden on Pennsylvanians.” (Id. ¶ 98.)
Plaintiffs’ complaint also cites the 2016 Performance
Audit’s statement that at some point “the average
turnpike traveler will be deterred by the increased cost
and seek alternative toll-free routes,” as well as its

App. 39
conclusion that “[t]he toll prices potentially are already
nearing the point where certain consumers will find it
too costly and avoid using the Pennsylvania Turnpike.”
(Id. ¶ 99.) Plaintiffs’ complaint notes that the 2016 Performance Audit recommended that the PTC “[s]eek immediate relief from the legislature to further reduce or
eliminate Act 44/89 required payments to PennDOT.”
(Id. ¶ 100.)
Plaintiffs’ complaint further alleges that the enforcement of Act 44/89 “is an official state action that
impedes travelers’ use of the Pennsylvania Turnpike
System,” asserting that the right to move freely by automobile “is implicit in the concept of ordered liberty
and finds ample support in the Commerce Clause,
the Privileges and Immunities Clause, and the Due
Process Clause of the Fourteenth Amendment,” and
that the economic burdens of Act 44/89 payments fall
“exclusively on travelers paying the toll,” while the
economic benefits from Act 44/89 payments “fall substantially on others who do not pay the toll.” (Id.
¶¶ 101-04.) Plaintiffs’ complaint concludes that the
PTC’s “imposition of a toll inflated to guarantee the
Act 44/89 payments to PennDOT to support facilities
and services having no functional relationship to use
of the Turnpike impairs Plaintiffs’ and potential class
members’ constitutional right to travel.” (Id. ¶ 105.)
Plaintiffs’ complaint alleges a violation of the Commerce Clause of the United States Constitution, asserting that the Clause “prohibits state actions that unduly
burden interstate commerce,” and “requires that user
fees like tolls: (1) may not discriminate against interstate

App. 40
commerce and travel; (2) must reflect a fair approximation of the use of facilities for whose benefit they are
imposed; and (3) may not be excessive in relation to
costs incurred by the imposing authority.” (Id. ¶¶ 12021.) Plaintiffs’ complaint maintains that:
PTC’s imposition of tolls for use of the Pennsylvania Turnpike constitutes an undue burden on interstate commerce in violation of the
Commerce Clause because: a. the tolls do not
reflect a fair approximation of the use of Pennsylvania Turnpike facilities by those upon
whom the tolls are imposed; b. the annual toll
revenues collected by PTC are excessive and
currently represent over 200 percent of the actual cost of making the Pennsylvania Turnpike System available to users; and c. more
than half of the annual toll revenues [collected] by PTC [ ] are used to pay for services
and facilities having no functional relationship to the operation and maintenance of the
Pennsylvania Turnpike System.
(Id. ¶ 122.) Plaintiffs’ complaint further alleges that
the provisions of Act 44/89 are unconstitutional facially or as applied, and that Defendants, “acting under
color of state law, have deprived and continue to deprive Plaintiffs and putative class members of the
right to engage in interstate commerce in violation of
their rights under the Commerce Clause.” (Id. ¶¶ 12324.)
Plaintiffs’ complaint also alleges a violation of
the constitutional right to travel, asserting that the
“U.S. Constitution protects individuals’ right to travel,”

App. 41
which Plaintiffs allege Defendants are impairing, in
that the imposition of an “excessive” toll:
a. unconstitutionally limits travelers’ access
to the Pennsylvania Turnpike; b. unduly burdens and impedes motorists’ right to travel
freely through the Commonwealth; and c. is
currently discouraging both business and private travelers from using the Turnpike.
(Id. ¶¶ 127-28.) Plaintiffs’ complaint alleges that Defendants, “acting under color of state law, have imposed
and continue to impose tolls that act as an unconstitutional impediment to Plaintiffs’ and class members’
right to travel.” (Id. ¶ 129.)
As relief for these alleged constitutional violations, Plaintiffs seek a declaratory judgment holding
that:
(1) the PTC’s imposition of excessive tolls for
the use of the Pennsylvania Turnpike by
motor carriers engaged in interstate commerce in amounts specifically calculated
to provide funds to support facilities and
services having no functional relationship to the operation and maintenance of
the Pennsylvania Turnpike System constitutes an undue burden on commerce in
violation of the Commerce Clause; . . .
[and] an unjustified impairment on their
constitutional right to travel; [and]
(2) the provisions of Act 44, as amended by
Act 89, that direct the PTC to: (a) make
payments to PennDOT to support facilities

App. 42
and services provided by the Commonwealth of Pennsylvania having no functional relation to the operation and
maintenance of the Pennsylvania Turnpike, and (b) fund those payments with
sums generated through the imposition
of tolls upon users of the Pennsylvania
Turnpike that do not represent a fair approximation of the use of Turnpike facilities, violate the Commerce Clause of the
United States Constitution, both facially
or as applied.
(Id. at 38-40.) Plaintiffs’ complaint also seeks a permanent injunction enjoining “Defendants PTC, its Commissioners, and its Executive Officers from imposing
constitutionally excessive tolls upon users of the Pennsylvania Turnpike System;” the “PTC from issuing any
further bonds or incurring any additional debt for the
purpose of making Act 44/89 payments;” the “PTC from
using toll revenues to make payments of interest or
principal on outstanding bonds issued for the purpose
of meeting its Act 44/89 obligations;” and “Defendants
Leslie S. Richards, in her official capacity as Secretary
of PennDOT, and Tom Wolf, Governor of Pennsylvania,
from enforcing Act 44/89 and from demanding or receiving Act 44/89 payments.” (Id. at 41-42.) Plaintiffs’
complaint further seeks a judgment against Defendants PTC and its Commissioners and Executive Officers in favor of Plaintiffs that awards “them refunds of
all payments of tolls imposed upon their use of the
Pennsylvania Turnpike System in excess of what was
reasonably necessary to pay for the cost of operating

App. 43
and maintaining the Pennsylvania Turnpike.” (Id. at
42.) Finally, Plaintiffs seek an order certifying this proceeding as a class action and an award of reasonable
attorneys’ fees and costs. (Id.)
B. Procedural History
On March 15, 2018, Plaintiffs filed this putative
class action complaint against the PTC Defendants
and the Commonwealth Defendants in their individual
and official capacities. (Doc. No. 1.) On April 2, 2018,
Plaintiffs filed a Motion for Preliminary Injunction
with supporting brief (Doc. Nos. 19, 20), in connection
with their complaint. Shortly thereafter, Plaintiffs filed
a Motion for Expedited Hearing on Plaintiff ’s Motion
for Preliminary Injunction with supporting brief, (Doc.
Nos. 22, 23), to which Defendants objected (Doc. No.
25). On April 13, 2018, the Court denied Plaintiffs’
Motion for Expedited Hearing on Plaintiffs’ Motion
for Preliminary Injunction. (Doc. No. 33.) At the same
time, the Court issued an Order to Show Cause why a
hearing on Plaintiffs’ Motion for Preliminary Injunction should not be consolidated with the trial on the
merits of this action pursuant to Federal Rule of Civil
Procedure 65(a)(2). (Doc. No. 34.) Plaintiffs subsequently filed a Motion to Withdraw Motion for Preliminary Injunction (Doc. No. 40), which the Court granted
by Order dated April 24, 2018 (Doc. No. 42).
On May 15, 2018, three separate motions to dismiss Plaintiffs’ Complaint were filed by certain Defendants: (1) Craig Shuey, Chief Operating Officer of

App. 44
the PTC (Doc. No. 49); (2) the Commonwealth Defendants (Doc. No. 50); and (3) William K. Lieberman, Vice
Chair of the PTC (Doc. No. 53). On the same date, the
PTC Defendants filed a motion to dismiss or, in the alternative, for summary judgment (Doc. No. 52). The
motions have been fully briefed. (Doc. Nos. 51, 54, 55,
56, 66, 70, 71, 72, 76-80).
On May 15, 2018, the Pennsylvania Public Transportation Association, Southeastern Pennsylvania
Transportation Authority, and the Port Authority of
Allegheny County filed a Motion for Leave to File an
Amicus Curiae Brief in Support of Defendants (Doc.
No. 57), with three supporting Declarations (Doc. Nos.
58-60). The Court granted the Motion by Order dated
May 22, 2018. (Doc. No. 63.)
Subsequently, on June 13, 2018, Plaintiffs filed a
Motion to Certify Class and Appoint Class Counsel
(Doc. No. 73), with a supporting Declaration (Doc. No.
74), and brief (Doc. No. 75). On June 21, 2018, the Commonwealth Defendants filed a Motion to Stay briefing on the Motion to Certify Class and Appoint Class
Counsel until the Court’s disposition of the pending
motions to dismiss (Doc. No. 81), with a brief in support
(Doc. No. 82). The Court granted the Motion to Stay
briefing and consideration of the Motion to Certify
Class by Order dated June 25, 2018. (Doc. No. 83.)
On June 28, 2018, Plaintiffs filed a Motion for Partial Summary Judgment on the Issue of Liability (Doc.
No. 84), with a brief in support thereto (Doc. No. 85),
and a statement of facts (Doc. No. 86), with supporting

App. 45
Declaration (Doc. No. 87). On July 20, 2018, Defendants Shuey and Lieberman filed briefs in opposition to
Plaintiff ’s motion (Doc. Nos. 93, 94). On the same date,
the PTC Defendants filed a brief in opposition to the
motion (Doc. No. 88), as well as an answer to statement
of facts (Doc. No. 89). The Commonwealth Defendants
also filed a brief in opposition (Doc. No. 90), an answer
to statement of facts (Doc. No. 91), and a supporting
Declaration (Doc. No. 92), on the same date. On August
3, 2018, Plaintiffs filed a reply brief in further support
of their motion (Doc. No. 97), as well as responses to
the answers to statement of facts filed by the Defendants (Doc. Nos. 98, 99).
On November 28, 2018, the PTC Defendants and
the Commonwealth Defendants filed a Notice of Supplemental Authority. (Doc. No. 102.) On November 29,
2018, Plaintiffs filed Objections to the Notice (Doc. No.
103), as well as a Supplement to their Statement of
Material Facts in support of their Motion for Partial
Summary Judgment (Doc. No. 104). The Commonwealth Defendants filed an Answer to Plaintiffs’ Supplement to their Statement of Material Facts on
December 10, 2018. (Doc. No. 105.)
II.

LEGAL STANDARDS
A. Motion to Dismiss

Federal notice and pleading rules require the complaint to provide the defendant notice of the claim and
the grounds upon which it rests. Phillips v. Cty. Of Allegheny, 515 F.3d 224, 232 (3d Cir. 2008). The plaintiff

App. 46
must present facts that, accepted as true, demonstrate
a plausible right to relief. Fed. R. Civ. P. 8(a). Although
Federal Rule of Civil Procedure 8(a)(2) requires “only a
short and plain statement of the claim showing that
the pleader is entitled to relief,” a complaint may nevertheless be dismissed under Federal Rule of Civil Procedure 12(b)(6) for its “failure to state a claim upon
which relief can be granted.” See Fed. R. Civ. P. 12(b)(6).
When ruling on a motion to dismiss under Rule
12(b)(6), the Court must accept as true all factual allegations in the complaint and all reasonable inference
that can be drawn therefrom, viewed in the light most
favorable to the plaintiff. See In re Ins. Brokerage Antitrust Litig., 618 F.3d 300, 314 (3d Cir. 2010). The
Court’s inquiry is guided by the standards of Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556 U.S. 662 (2009). Under Twombly and
Iqbal, pleading requirements have shifted to a “more
heightened form of pleading.” See Fowler v. UPMC
Shadyside, 578 F.3d 203, 210 (3d Cir. 2009). To avoid
dismissal, all civil complaints must set out “sufficient
factual matter” to show that the claim is facially plausible. Id. The plausibility standard requires more than
a mere possibility that the defendant is liable for the
alleged misconduct. As the Supreme Court instructed
in Iqbal, “where the well-pleaded facts do not permit
the [C]ourt to infer more than the mere possibility of
misconduct, the complaint has alleged – but it has not
‘show[n]’ – ‘that the pleader is entitled to relief.’ ” Iqbal,
556 U.S. at 679 (citing Fed. R. Civ. P. 8(a)(2)).

App. 47
Accordingly, to determine the sufficiency of a complaint under Twombly and Iqbal, the United States
Court of Appeals for the Third Circuit has identified
the following steps a district court must take when determining the sufficiency of a complaint under Rule
12(b)(6): (1) identify the elements a plaintiff must
plead to state a claim; (2) identify any conclusory allegations contained in the complaint “not entitled” to
the assumption of truth; and (3) determine whether
any “well-pleaded factual allegations” contained in the
complaint “plausibly give rise to an entitlement to relief.” See Santiago v. Warminster Twp., 629 F.3d 121,
130 (3d Cir. 2010) (citation and quotation marks omitted).
In ruling on a Rule 12(b)(6) motion to dismiss for
failure to state a claim, “a court must consider only the
complaint, exhibits attached to the complaint, matters
of public record, as well as undisputedly authentic documents if the complainant’s claims are based upon
these documents.” Mayer v. Belichick, 605 F.3d 223, 230
(3d Cir. 2010) (citing Pension Benefit Guar. Corp. v.
White Consol. Indus., Inc., 998 F.2d 1192, 1196 (3d Cir.
1993)). A court may also consider “any ‘matters incorporated by reference or integral to the claim, items
subject to judicial notice, matters of public record, orders, [and] items appearing in the record of the case.’ ”
Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 260 (3d
Cir. 2006) (quoting 5B Charles A. Wright & Arthur R.
Miller, FEDERAL PRACTICE & PROCEDURE § 1357 (3d ed.
2004)).

App. 48
B. Motion for Summary Judgment
Rule 56(a) of the Federal Rules of Civil Procedure
provides that summary judgment is warranted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A factual
dispute is material if it might affect the outcome of the
suit under the applicable law, and it is genuine only if
there is a sufficient evidentiary basis that would allow
a reasonable fact-finder to return a verdict for the nonmoving party. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248-49 (1986). At summary judgment, the inquiry
is whether the evidence presents a sufficient disagreement to require submission to the jury or whether it is
so one-sided that one party must prevail as a matter of
law. Id. at 251-52. In making this determination, the
Court must “consider all evidence in the light most favorable to the party opposing the motion.” A.W. v. Jersey City Pub. Schs., 486 F.3d 791, 794 (3d Cir. 2007).
The moving party has the initial burden of identifying evidence that it believes shows an absence of a
genuine issue of material fact. Conoshenti v. Pub. Serv.
Elec. & Gas Co., 364 F.3d 135, 145-46 (3d Cir. 2004).
Once the moving party has shown that there is an absence of evidence to support the non-moving party’s
claims, “the non-moving party must rebut the motion
with facts in the record and cannot rest solely on assertions made in the pleadings, legal memoranda, or
oral argument.” Berckeley Inv. Grp. Ltd. v. Colkitt, 455
F.3d 195, 201 (3d Cir. 2006); accord Celotex Corp. v.
Catrett, 477 U.S. 317, 324 (1986). If the non-moving

App. 49
party “fails to make a showing sufficient to establish
the existence of an element essential to that party’s
case, and on which that party will bear the burden at
trial,” summary judgment is warranted. Celotex, 477
U.S. at 322. With respect to the sufficiency of the evidence that the non-moving party must provide, a court
should grant a motion for summary judgment when
the non-movant’s evidence is merely colorable, conclusory, or speculative. Anderson, 477 U.S. at 249-50.
There must be more than a scintilla of evidence supporting the non-moving party and more than some
metaphysical doubt as to the material facts. Id. at 252;
see also Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986). Further, a party may
not defeat a motion for summary judgment with evidence that would not be admissible at trial. Pamintuan
v. Nanticoke Mem’l Hosp., 192 F.3d 378, 387 (3d Cir.
1999).
C. Facial Versus As-Applied Constitutional
Challenges
“A party asserting a facial challenge ‘must establish that no set of circumstances exists under which
[an act] would be valid.’ ” Heffner v. Murphy, 745 F.3d
56, 65 (3d Cir. 2014) (quoting United States v. Mitchell,
652 F.3d 387, 405 (3d Cir. 2011)). “This is a particularly
demanding standard and is the ‘most difficult challenge to mount successfully.’ ” Id. (quoting United States
v. Salerno, 481 U.S. 739, 745 (1987)). “By contrast, ‘[a]n
as-applied attack . . . does not contend that a law is unconstitutional as written but that its application to a

App. 50
particular person under particular circumstances deprived that person of a constitutional right.” Id. (alterations in original) (quoting United States v. Marcavage,
609 F.3d 264, 273 (3d Cir. 2010)). The United States
Supreme Court “typically disfavor[s] facial challenges”
because “[t]hey ‘often rest on speculation,’ can lead
courts unnecessarily to anticipate constitutional questions or formulate broad constitutional rules, and may
prevent governmental officers from implementing laws
‘in a manner consistent with the Constitution.’ ” See
John Doe No. 1 v. Reed, 561 U.S. 186, 230 (2010) (quoting Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442, 449, (2008)). “If a litigant decides
to bring both types of challenge, a court’s ruling on one
might affect the other.” Knick v. Twp. of Scott, 862 F.3d
310, 321 (3d Cir. 2017) (citing Heffner, 745 F.3d at 65
n.7), cert. granted in part, Knick v. Twp. of Scott, ___
U.S. ___ (2018). “But if a litigant loses an as-applied
challenge because the [C]ourt rules as a matter of law
that the statute or ordinance was constitutionally applied to her, it follows a fortiori that the law is not unconstitutional in all applications.” Id. at 321 (citing
Dickerson v. Napolitano, 604 F.3d 732, 741 (2d Cir.
2010)).
III. DISCUSSION
As noted above, Plaintiffs’ complaint asserts that
Act 44/89 violates both (1) the dormant Commerce
Clause of the United States Constitution, and (2) the
constitutional right to travel. The Commonwealth Defendants and the PTC Defendants’ motions to dismiss

App. 51
both argue that Plaintiffs’ complaint fails to state a
claim on either ground. The Court first addresses Defendants’ challenges to Plaintiffs’ dormant Commerce
Clause claim.
A. Plaintiffs’ Claim that Act 44/89 Violates
the dormant Commerce Clause
1. Applicable Legal Standard
The Commerce Clause of the United States Constitution grants Congress the authority to “regulate
Commerce . . . among the several States.” U.S. CONST.
ART. I, § 8, cl. 3. The Commerce Clause also contains
an implied requirement, known as the “dormant” Commerce Clause, that “states not ‘mandate differential
treatment of in-state and out-of-state economic interests that benefits the former and burdens the latter.’ ”
Cloverland-Green Spring Dairies, Inc. v. Pa. Milk Mktg.
Bd., 462 F.3d 249, 261 (3d Cir. 2006) (quoting Granholm v. Heald, 544 U.S. 460, 472 (2005)).
The Supreme Court recently discussed the two
principles that govern the authority of a State to regulate interstate commerce: “[f ]irst, state regulations may
not discriminate against interstate commerce; and second, States may not impose undue burdens on interstate commerce.” South Dakota v. Wayfair, Inc., 138
S. Ct. 2080, 2090-91, ___ U.S. ___ (2018). The Court
stated that laws “that discriminate against interstate
commerce face ‘a virtually per se rule of invalidity.’ ”
Id. at 2091 (quoting Granholm, 544 U.S. at 470). However, “[s]tate laws that ‘regulat[e] even-handedly to

App. 52
effectuate a legitimate local public interest . . . will be
upheld unless the burden imposed on such commerce
is clearly excessive in relation to the putative local benefits.’ ” Id. (quoting Pike v. Bruce Church, Inc., 397 U.S.
137, 142 (1970)). As the Supreme Court noted, “these
two principles guide the courts in adjudicating cases
challenging state laws under the Commerce Clause.”
Id.
Further, the Supreme Court has recognized that
“[w]here state or local government action is specifically
authorized by Congress, it is not subject to the [dormant] Commerce Clause even if it interferes with interstate commerce.” White v. Mass. Council of Constr.
Emp’rs, Inc., 460 U.S. 204, 213 (1983). In making such
an authorization, “Congress must manifest its unambiguous intent.” Wyoming v. Oklahoma, 502 U.S. 437,
458 (1992). Stated differently, congressional “ ‘intent
and policy’ to sustain state legislation from attack under the Commerce Clause” must be “ ‘expressly stated.’ ”
Sporhase v. Nebraska, ex rel. Douglas, 458 U.S. 941,
960 (1982) (quoting New England Power Co. v. New
Hampshire, 455 U.S. 331, 343 (1982)). However, “[t]here
is no talismanic significance to the phrase ‘expressly
stated,’ ” as it “merely states one way of meeting the
requirement that for a state regulation to be removed
from the reach of the [d]ormant Commerce Clause congressional intent must be unmistakably clear.” SouthCentral Timber Dev., Inc. v. Wunnicke, 467 U.S. 82, 91
(1984).

App. 53
2. Arguments of the parties
a. Commonwealth Defendants
In arguing that Plaintiffs’ complaint fails to state
a claim that Act 44/89 violates the dormant Commerce
Clause, the Commonwealth Defendants maintain that:
(1) Congress has specifically authorized state transportation authorities to use toll revenues for any purpose
for which federal transportation funds may be used;
and (2) even in the absence of specific congressional
authorization, Act 44/89 does not impose a burden on
interstate commerce that is “clearly excessive in relation to the putative local benefits” such that Act 44/89
violates the dormant Commerce Clause. (Doc. No. 51 at
17-30.)
In arguing that Congress has specifically authorized the state statutory scheme such that Act 44/89 is
invulnerable to constitutional attack on dormant Commerce Clause grounds, the Commonwealth Defendants point to the Intermodal Surface Transportation
Efficiency Act of 1991 (“ISTEA”), federal legislation
that permits public transportation authorities to use
toll revenues from toll facilities initially for debt service on bonds and for operation and maintenance of the
toll facilities, and secondarily (to the extent additional
funds are available) for “any other purpose for which
Federal funds may be obligated by a State” under Title
23 of the U.S. Code. (Doc. No. 51 at 18-19) (citing 23

App. 54
U.S.C. § 129(a)(3)(A).)7 Pursuant to ISTEA and a 2015
amendment through the Fixing America’s Surface
Transportation (“FAST”) Act,8 the Commonwealth Defendants argue that, under Section 1109(b) of the
7

23 U.S.C. § 129(a)(3) provides as follows:
(3) Limitations on the use of revenues. –
(A) In general. – A public authority with jurisdiction over a toll facility shall use all toll revenues received from operation of the toll facility
only for –
(i) debt service with respect to the projects
on or for which the tolls are authorized,
including funding of reasonable reserves
and debt service on refinancing;
(ii) a reasonable return on investment of
any private person financing the project, as determined by the State or interstate compact of States concerned;
(iii) any costs necessary for the improvement
and proper operation and maintenance
of the toll facility, including reconstruction, resurfacing, restoration, and rehabilitation;
(iv) if the toll facility is subject to a publicprivate partnership agreement, payments that the party holding the right
to toll revenues owes to the other party
under the public-private partnership
agreement; and
(v) if the public authority certifies annually that the tolled facility is being adequately maintained, any other purpose
for which Federal funds may be obligated by a State under this title.
23 U.S.C. § 129(a)(3).
8
Pub. L. No. 114-94, 129 Stat. 1311 (2015).

App. 55
FAST Act, codified at 23 U.S.C. § 133(b), Congress has
specifically authorized Turnpike toll revenues to be
used for: (1) any of fourteen categories of projects described in 23 U.S.C. § 133(b); (2) any of the categories
of projects described in pre-FAST Act § 133(b); and
(3) any of the broad categories of transportation alternatives set forth in pre-FAST Act § 101(a)(29). (Id. at
20-21.)
The Commonwealth Defendants maintain that
the projects that Plaintiffs assert should not be funded
with Turnpike toll revenues (as described in paragraph 84 of their complaint) are all projects that fit
within the broad authorization of ISTEA, as amended
by the FAST Act. (Id. at 21-22.) The Commonwealth
Defendants admit that two projects cited by Plaintiffs
– airport terminal improvements and construction of a
train track in an industrial park – may not be covered
by Section 133(b), but maintain, however, that Plaintiffs allege only that these projects can receive funds
from the MTF (Doc. No. 1 ¶ 79), not that the projects
were paid for with funds transferred from the PTC and
PennDOT, as the MTF receives, in addition to the $30
million from the PTC transfer to PennDOT, funds from
vehicle and driver fees (Doc. No. 51 at 22) (citing 74
Pa. C.S. § 1904(b)(3)); 2018-19 GOVERNOR’S EXECUTIVE
BUDGET at H49 (Feb. 6, 2018) (indicating that $74-$80
million is deposited in the MTF annually from driver and
vehicle fees).9 Similarly, the Commonwealth Defendants
9

The Commonwealth Defendants correctly note that the Court
may consider “matters of public record” when deciding a motion to
dismiss, including administrative agency filings, “materials like

App. 56
argue that, as to Plaintiffs’ apparent challenge to the
use of Act 44/89 funds to pay for programs of statewide
significance such as intercity passenger rail and bus
services (Doc. No. 1 ¶ 83), even if such programs are
not authorized to receive funds under Title 23, the programs receive the majority of their funding from sales
tax funds, as opposed to Act 44/89 transfer payments
(Doc. No. 51 at 23).10 In sum, the Commonwealth Defendants maintain that given the multiple sources of
funding for the projects mentioned by Plaintiffs, even
if Section 133(b) does not authorize any of those projects, Plaintiffs have not and cannot plead that Act
44/89 toll revenues are utilized for such programs. (Id.)
In further support of their position, the Commonwealth Defendants point to a relatively recent opinion
from the United States Court of Appeals for the Second
Circuit in American Trucking Associations, Inc. v. New
York State Thruway Authority, 886 F.3d 238 (2d Cir.
2018) (hereafter “ATA II”), which held that ISTEA foreclosed a dormant Commerce Clause challenge to the
use of toll revenues for transportation purposes unrelated to the tolling facilities that generated those

decision letters of government agencies and published reports of
administrative bodies,” and other “records of a government agency.”
Schmidt v. Skolas, 770 F.3d 241, 249 (3d Cir. 2014).
10
On this point, the Commonwealth Defendants cite 74 Pa.
C.S. §§ 1506(c)(1) and (e)(3)(i), which provide that 13.24% of sales
tax revenues deposited in the PTTF are allocated to programs of
statewide significance, as well as the 2018-19 Governor’s Executive Budget at H67.

App. 57
revenues on the ground that Congress expressly authorized that use in ISTEA. (Doc. No. 51 at 23-24.)
The Commonwealth Defendants further argue
that, even if the Court should find that Congress did
not expressly authorize the challenged use of Turnpike
toll revenues, removing them from potential dormant
Commerce Clause attack, Plaintiffs’ dormant Commerce Clause claim still fails because Act 44/89 does
not impose “discriminatory burdens on interstate commerce.” (Id. at 25.) In so arguing, the Commonwealth
Defendants maintain that the applicable standard for
evaluating any potential burden imposed by Act 44/89
on interstate commerce is provided by Pike v. Bruce
Church, Inc., 397 U.S. 137 (1970), which states that in
determining if a challenged statutory scheme violates
the dormant Commerce Clause, the Court is to assess
“whether the [state statute] imposes a burden on interstate commerce that is ‘clearly excessive in relation
to the putative local benefits.’ ” C & A Carbone, Inc. v.
Town of Clarkstown, 511 U.S. 383, 390 (1994) (quoting
Pike, 397 U.S. at 142). The Commonwealth Defendants
maintain that, when analyzed under the Pike test, the
facts alleged in Plaintiffs’ complaint do not support a
reasonable inference that the usage of Turnpike tolls
for other Commonwealth transportation projects burdens interstate commerce. (Doc. No. 51 at 26.) The
Commonwealth Defendants argue that in crafting the
allegations of their complaint and their dormant Commerce Clause challenge, Plaintiffs impermissibly rely
on Supreme Court jurisprudence relating to user fees,

App. 58
as set forth in Northwest Airlines v. Kent, 510 U.S. 355
(1994), as opposed to the Pike test. (Id. at 26-27.)
Nevertheless, the Commonwealth Defendants
maintain that even when analyzed under the jurisprudence relied on by Plaintiffs, Plaintiffs’ complaint still
fails to state a claim for a violation of the dormant
Commerce Clause. (Id. at 27.) In Northwest Airlines,
the Supreme Court stated that a “levy is reasonable
. . . if it (1) is based on some fair approximation of
use of the facilities, (2) is not excessive in relation to
the benefits conferred, and (3) does not discriminate
against interstate commerce.” Northwest Airlines, 510
U.S. at 369 (quoting Evansville-Vanderburgh Airport
Auth. Dist. v. Delta Airlines, Inc., 405 U.S. 707, 716-17
(1972)).11 The Commonwealth Defendants argue that,
in evaluating “fair approximation of use” and relationship to benefits conferred, Plaintiffs improperly focus
narrowly on the Turnpike while ignoring the fact that
the Turnpike is part of a larger transportation system
in Pennsylvania, and that “[t]hose who pay tolls to use
the Turnpike benefit from not only access to the Turnpike itself but from the maintenance, operation, and
improvement of the entire transportation system, of
which the Turnpike is only one part.” (Doc. No. 51 at
27.) The Commonwealth Defendants point to Supreme
Court precedent that they maintain has upheld fees
imposed for the use of a state’s highways, even when
those “fees do not ‘reflect with exact precision every
gradation in use’ of those highways.” (Id. at 28-29)
11

The Court refers to this test as the “Evansville/Northwest
Airlines” test.

App. 59
(quoting Aero Mayflower Transit Co. v. Bd. of R.R.
Comm’rs, 332 U.S. 495, 504 (1947), overruled on other
grounds, Am. Trucking Ass’ns, Inc. v. Smith, 496 U.S.
167 (1990)). Accordingly, the Commonwealth Defendants argue that Plaintiffs’ focus on the cost of Turnpike
tolls as compared to the cost of operating and maintaining the Turnpike is impermissibly narrow, maintaining that “the fact that plaintiffs (or other putative
class members) might not use other state transportation facilities funded with Turnpike toll revenues does
not render the tolls they pay unconstitutionally excessive.” (Id. at 29-30.) For all of these reasons, the Commonwealth Defendants maintain that the Plaintiffs’
complaint fails to state a claim for a violation of the
dormant Commerce Clause.
b. PTC Defendants
The PTC Defendants similarly argue that Plaintiffs’ complaint fails to state a claim for a violation of
the dormant Commerce Clause because Plaintiffs rely
on the Evansville/Northwest Airlines test, as opposed
to the Pike test, which the PTC Defendants maintain
is the correct test for evaluating whether the allegations of Plaintiffs’ complaint state a claim for violation
of the dormant Commerce Clause. (Doc. No. 56 at 1322.) Second, the PTC Defendants maintain that, assuming arguendo that Plaintiffs’ complaint states a
claim for violation of the dormant Commerce Clause,
because Congress has specifically authorized the PTC
to collect toll revenues in excess of those needed to operate the Turnpike, the PTC Defendants are entitled

App. 60
to summary judgment on Plaintiffs’ dormant Commerce Clause claim. (Id. at 23-30.)12
As to their first argument, the PTC Defendants
maintain that the correct test in the Third Circuit for
evaluating dormant Commerce Clause challenges is
that set forth in Pike v. Bruce Church, Inc., 397 U.S.
137 (1970). (Id. at 11-12.) The PTC Defendants argue
that the Evansville/Northwest Airlines test is inapplicable to this case, as Northwest Airlines is a case primarily concerning statutory interpretation, or whether
certain user fees are prohibited by a particular statute.
(Id. at 13-14.) Moreover, the PTC Defendants point out
that at the conclusion of the Supreme Court’s opinion
in Northwest Airlines, the Court addressed whether
the fees at issue also violated the dormant Commerce
Clause, and concluded that they did not because express congressional authorization insulated the particular state statute from dormant Commerce Clause
attack. (Id. at 14-15.) The PTC Defendants note that at
the same time, the Supreme Court concluded that,
even if its determination as to congressional authorization was incorrect, any dormant Commerce Clause
challenge to the user fees at issue failed based on the
test first articulated in Evansville-Vanderburgh. (Id. at
15.) However, the PTC Defendants maintain that the
Supreme Court has never treated that conclusion as
the holding of the case, and, therefore, there is no basis

12

As noted above, the PTC Defendants’ motion is framed as
a motion to dismiss or, in the alternative, for summary judgment.

App. 61
to expand the Evansville-Vanderburgh analysis beyond the scope of that case. (Id. at 15-16.)
In support of their argument that Pike provides
the correct test against which to measure the allegations of Plaintiffs’ complaint, the PTC Defendants note
that Pike has been recently applied by the Supreme
Court in dormant Commerce Clause cases, pointing to
Department of Revenue of Kentucky v. Davis, 553 U.S.
328, 353 (2008) and United Haulers Association, Inc. v.
Oneida-Herkimer Solid Waste Management Authority,
550 U.S. 330, 346 (2007). (Id. at 16.) The PTC Defendants quote a Second Circuit case, Selevan v. New York
Thruway Authority, 584 F.3d 82, 96 (2d Cir. 2009),
which acknowledged that “the [Supreme] Court has
not used the Northwest Airlines test to evaluate the
constitutionality of a highway toll,” and further note
that the Third Circuit has similarly never utilized the
Evansville/Northwest Airlines test to evaluate a dormant Commerce Clause challenge to a highway toll,
but instead has utilized variants of Pike’s balancing
test. (Id. at 15-16) (citing Wallach v. Brezenoff, 930 F.2d
1070 (3d Cir. 1991) and Yerger v. Mass. Tp. Auth., 395
F. App’x 878 (3d Cir. 2010)).
The PTC Defendants then turn to an analysis of
the allegations of Plaintiffs’ complaint under the Pike
test.13 They note that in Pike, the Supreme Court
13

The PTC Defendants first note that heightened scrutiny
is inapplicable to any review of the challenged tolling scheme,
as Act 44/89 does not on its face discriminate against interstate
commerce in favor of in-state interests in that both in-state and
out-of-state drivers are charged identical tolls and Plaintiffs’

App. 62
explained that “where the statute addresses a legitimate local public interest, and its effects on interstate
commerce are only incidental, it will be upheld unless
the burden imposed on such commerce is clearly excessive in relation to the putative local benefits.” (Doc. No.
56 at 18) (quoting Pike, 397 U.S. at 142). The PTC Defendants argue that the benefits of Act 44/89 to Pennsylvania citizens, as expressed in Act 89 itself, are
significant, citing the findings of the General Assembly
in enacting Act 89.14 The PTC Defendants maintain

complaint does not allege otherwise. (Doc. No. 56 at 17-18.) On
this point, the PTC Defendants refer to Heffner v. Murphy, 745
F.3d 56, 72 (3d Cir. 2014), where the Third Circuit stated that a
“dormant Commerce Clause inquiry only considers whether the
imposition of the limitation falls equally upon in-state and out-ofstate [residents]; if so, there is clearly no discrimination in favor
of Pennsylvania [residents],” and therefore “we do not subject it
to heightened scrutiny under dormant Commerce Clause analysis.” Id. In Heffner, the Third Circuit further stated that “[i]f we
determine that heightened scrutiny is inapplicable because the
[statute’s] provisions do not discriminate in favor of in-state interests, we then must balance interests pursuant to Pike[.]” Id. at
70. On this basis, the PTC Defendants maintain that in the absence of any allegations of discriminatory purpose or effect, the
Court should properly apply the Pike balancing test when analyzing the challenged statute. (Doc. No. 56 at 18.)
14
In the Preamble to Act 89, the General Assembly found:
The Commonwealth’s transportation system provides
access to employment, educational services, medical
care and other life-sustaining services for all residents
of this Commonwealth, including senior citizens and
persons with disabilities.
...
There is urgent public need to reduce congestion, increase capacity, improve safety and promote economic

App. 63
that this “multi-faceted funding assistance” provided
by Act 44/89 to various transportation programs in the
Commonwealth of Pennsylvania promotes the health,
safety and welfare of Pennsylvania citizens. (Id. at 21.)
As to the second part of the Pike balancing test –
whether the burden imposed on interstate commerce
by the statute is “clearly excessive” in relation to local
benefits conferred by the statute – the PTC Defendants
argue that Plaintiffs’ complaint fails to “identify any
differential burden placed on interstate commerce by
efficiency of transportation facilities throughout this
Commonwealth.
The Commonwealth has limited resources to fund the
maintenance and expansion of its transportation facilities. . . . the Commonwealth’s transportation system is
underfunded by $3,500,000,000 and [it is] projected
that amount will grow to $6,700,000,000 by 2030 without additional financial investment by the Commonwealth.
To ensure the needs of the public are adequately addressed, funding mechanisms must be enhanced to sustain the Commonwealth’s transportation system in the
future.
The utilization of user fees establishes a funding source
for transportation needs that spreads the costs across
those who benefit from the Commonwealth’s transportation system.
...
In order to ensure a safe and reliable system of public
transportation, aviation, ports, rail and bicycle and pedestrian facilities, other transportation-related user
fees must be deposited in the Public Transportation
Trust Fund and the Multimodal Transportation Fund.
(Doc. No. 55-4 at 3, Preamble to Act of Nov. 25, 2013, P.L. 974,
No. 89 at ¶¶ (3), (5)-(9), (11).)

App. 64
the [PTC’s] toll practices.” (Id. at 21-22.) On this point,
the PTC Defendants quote Norfolk Southern Corporation v. Oberly, 822 F.2d 388, 406 (3d Cir. 1987), where
the Third Circuit stated that “[t]he ‘incidental burden
on interstate commerce’ appropriately considered in
Commerce Clause balancing is the degree to which
state action incidentally discriminates against interstate commerce relative to intrastate commerce. It is a
comparative measure.” Id. The PTC Defendants maintain that where tolls equally burden intrastate and
interstate commerce (or, in other words, in-state and
out-of-state drivers are charged identical tolls), no differential burden exists for purposes of Pike balancing.
(Doc. No. 56 at 22.) Accordingly, for these reasons, the
PTC Defendants argue that Plaintiffs’ complaint fails
to set forth facts that support a reasonable inference
that Act 44/89 violates the dormant Commerce Clause.
(Id. at 22.)15
As noted above, the PTC Defendants argue that,
in the event that Plaintiffs’ complaint is not dismissed
for failure to state a claim under the dormant Commerce Clause, they are entitled to summary judgment on Plaintiffs’ dormant Commerce Clause claim
15

The PTC Defendants further maintain that, even assuming that the Act 44/89 tolling structure could be viewed as imparting some burden on interstate commerce, by statute, much of the
Act 44/89 funds benefit entities acting in interstate commerce,
such as SEPTA and the Port Authority of Allegheny County, and,
therefore, “toll revenues are diverted from one channel of interstate commerce for the benefit of another. Thus, there is no net
non-incidental burden on interstate commerce.” (Doc. No. 56 at
22 n.3.)

App. 65
because Congress has specifically authorized the
PTC’s toll structure as established in Act 44/89. (Id. at
23.) Like the Commonwealth Defendants, they analogize the instant case to American Trucking Associations, Inc. v. New York State Thruway Authority, 886
F.3d 238 (2d Cir. 2018) (“ATA II”), where the Second
Circuit held that Congress – through ISTEA – authorized the New York State Thruway to collect and expend
toll revenue on non-Thruway-related projects. Similar
to the Commonwealth Defendants, the PTC Defendants point to ISTEA as the source of congressional authorization for the PTC’s toll structure, as established
in Act 44/89, arguing that, as the Second Circuit stated
in ATA II, “ISTEA freed states from their obligation . . .
to repay the federal government should they continue
to collect tolls after retiring outstanding debts, and
granted them greater flexibility to operate toll facilities and use toll revenues for a variety of transportation projects.” ATA II, 886 F.3d at 242 (footnotes
omitted).
In concluding that ISTEA specifically authorized
a toll structure that permitted the expenditure of toll
revenues on non-tolled road projects, the Second Circuit in ATA II described ISTEA’s departure from the
prior statutory framework as follows:
[S]ection 1012(a) authorized state public authorities to collect highway tolls without repaying the federal government, so long as
those funds “will be used first for debt service,
for reasonable return on investment of any
private person financing the project, and for

App. 66
the costs necessary for the proper operation
and maintenance of the toll facility.” Once a
state certified adequate maintenance, it could
use any excess toll revenues “for any purpose
for which Federal funds may be obligated by a
State under [Title 23].”
Id. at 242 (quoting § 1012(a)(3), 105 Stat. at 1936-37).
The PTC Defendants point to record evidence of
the PTC’s entry into an agreement with the Federal
Highway Administration (“FHWA Agreement”) pursuant to ISTEA permitting the PTC to use “toll revenues
resulting from the operation of the toll facility” – defined as the entire Pennsylvania Turnpike System, including “any future system extensions” – “first for debt
service,” and further providing that “the [PTC] is entitled to use any toll revenues in excess of amounts required under [ISTEA, § 1012(a) ], for any purpose for
which [f ]ederal funds may be obligated by a State under Title 23, United States Code.” (Doc. No. 55 ¶ 24.)
Thus, the PTC Defendants maintain that based on
ISTEA § 1012(a) and the FHWA Agreement negotiated
pursuant to it, Congress has expressly authorized
the PTC to utilize toll revenues on (1) debt service and
(2) for “any purpose for which [f ]ederal funds may be
obligated by a State under Title 23, United States
Code.”16 (Doc. No. 56 at 25-26.)
16

The PTC Defendants point out that in 2012, an amendment to Section 129(a)(3) expanded the categories of expenses to
which toll revenues could be dedicated in the Moving Ahead for
Progress in the 21st Century Act (“MAP-21”), Pub. L. No. 112141, Div. A, Title I, § 1512, 126 Stat. 405, 568-69 (2012). The PTC

App. 67
The PTC Defendants maintain that the PTC’s
use of toll revenues to satisfy Act 44/89 obligations is
fully compliant with this authorization. (Doc. No. 56
at 26.) The PTC Defendants explain that the PTC
makes its annual $450 million payment to PennDOT
by “(1) transferring $50 million in funds from operating revenues and (2) incurring 30-year subordinated
debt to fund the remaining $400 million due.” (Id.) (citing Doc. No. 55 ¶ 12). The PTC Defendants note that
the PTC “makes debt service payments of principal
and interest to subordinated bondholders, also out of
operating revenue” to service that debt. (Id.) (citing
Doc. No. 55 ¶¶ 13-14).
The PTC Defendants maintain that both uses of
funds are expressly authorized and constitutionally
permissible under the FHWA Agreement. (Doc. No. 56
at 27.) Pointing to record evidence, the PTC Defendants maintain that “[a]ll but $50 million in annual Act
44/89-related toll revenue expenditures are for service
on the [PTC]’s subordinated debt obligations,” (Id. at
27) (citing Doc. No. 55 at ¶ 12), a purpose permitted by
the plain language of the FHWA Agreement entered
into pursuant to ISTEA Section 1012(a), which does
not restrict the types of “debt service” for which toll
Defendants note that subsequent to this amendment, the FHWA
issued interpretive guidance providing that “[f ]or toll facilities
that have executed Section 129 tolling agreements prior to October 1, 2012, the terms of those agreements will continue in force.”
(Doc. No. 56 at 26 n.4) (citing Doc. No. 55 ¶ 34). Accordingly, the
PTC Defendants maintain that the PTC “continues to act under
this prior congressional authorization.” (Doc. No. 56 at 26 n.4)
(citing Doc. No. 55 ¶ 25).

App. 68
revenues can be dedicated (Id. at 27). As to the remaining $50 million transferred annually from the PTC to
PennDOT, the PTC Defendants maintain that Section
1012(a) of ISTEA, as well as the FHWA Agreement,
permit the PTC to utilize toll revenues for “any purpose for which [f ]ederal funds may be obligated by a
State under Title 23, United States Code,” providing
that the “State certifies annually that the tolled facility
is being adequately maintained.” (Id. at 27) (quoting
ISTEA § 1012(a)).
The PTC Defendants point to record evidence that
they maintain supports their position that the PTC
has made the necessary certifications of adequate
maintenance to the FHWA for the period ending May
31, 2016. (Id. at 27-28) (citing Doc. No. 55 ¶ 27). The
PTC Defendants admit that the certifications have not
been made on a yearly basis due to the limited capacity
of the Commonwealth of Pennsylvania’s Bureau of Audits, but argue that nothing in ISTEA or the FHWA
Agreement sets a date by which audits must be performed, and moreover, the Secretary of Transportation,
the individual “charged with enforcement of ‘the limitations on the use of revenues described in’ Section
129(a),” has not found the PTC in non-compliance with
those limitations. (Id. at 28) (citing Doc. No. 55 ¶ 30).
Therefore, the PTC Defendants maintain that they are
“entitled ‘to allocate excess toll revenues . . . for any
project eligible to receive federal assistance under Title
23.’ ” (Id. at 28) (quoting ATA II, 886 F.3d at 246).
Accordingly, the PTC Defendants maintain that
the issue of express congressional authorization turns

App. 69
on whether the funds transferred from the PTC to
PennDOT pursuant to Act 44/89 are “expended on a
‘project eligible to receive federal assistance under Title 23.’ ” (Id. at 29) (citing ATA II, 886 F.3d at 246). The
PTC Defendants argue that all but one of the expenditures of toll revenues identified by Plaintiffs in their
complaint are facially authorized under Title 23, with
the possible exception of the Erie International Airport terminal building, for which the PTC Defendants
maintain that authorization is unclear “because of
Plaintiffs’ vague description in the [c]omplaint.” (Id. at
29 & n.6.) As to that project, the PTC Defendants point
to record evidence seeking to demonstrate that the
project constituted only $700,000 in expenditures, an
amount which they argue, even if not congressionally
authorized, is de minimis. (Id. at 29) (citing Doc. No.
55 ¶ 33). For all of these reasons, the PTC Defendants maintain that, assuming arguendo that Plaintiffs’
complaint states a dormant Commerce Clause claim,
congressional authorization bars Plaintiffs’ dormant
Commerce Clause challenge to Act 44/89. (Id.)
c. Plaintiffs
In response to the arguments of the Commonwealth Defendants and the PTC Defendants, Plaintiffs
argue first that their complaint states a claim for violation of the dormant Commerce Clause under the
Evansville/Northwest Airlines test, which they maintain is the standard that governs in a dormant Commerce Clause challenge to allegedly excessive tolls or
user fees. (Doc. No. 70 at 24-35.) Second, Plaintiffs

App. 70
argue that through ISTEA, Congress has not authorized states to impose turnpike tolls free of limitations
imposed by the dormant Commerce Clause. (Id. at
41-53.) In addition, Plaintiffs maintain that even if
Congress did authorize states to utilize excess toll revenues on unrelated transportation projects, Defendants have not complied with the limitation placed on
the exercise of that authority by failing to certify annually that the Turnpike is adequately maintained.
(Id. at 53-63.)
As to the correct standard applicable to Plaintiffs’
dormant Commerce Clause challenge, Plaintiffs maintain that various Circuit Courts of Appeal have applied
the Evansville/Northwest Airlines test to the evaluation of tolls and other user fees, and argue that this
Court (and the Third Circuit) should do likewise. (Id.
at 24-26.) Under the Evansville/Northwest Airlines
test, tolls are reasonable if they “(1) [are] based on
some fair approximation of use of the facilities, (2) [are]
not excessive in relation to the benefits conferred, and
(3) [do] not discriminate against interstate commerce.”
Northwest Airlines, 410 U.S. at 369 (citing Evansville,
405 U.S. at 716-17). Plaintiffs’ dormant Commerce Clause
claim is based on their argument that Act 44/89’s toll
structure violates prongs (1) and (2) of the Evansville/Northwest Airlines test. (Doc. No. 70 at 25.)
In support of their argument, Plaintiffs point to a
non-precedential 2010 Third Circuit opinion in Yerger
v. Massachusetts Turnpike Authority, 395 F. App’x 878
(3d Cir. 2010), as well as a 1991 Third Circuit opinion
in Wallach v. Brezenoff, 930 F.2d 1070 (3d Cir. 1991).

App. 71
Plaintiffs note that in Yerger, after conducting an analysis under Pike to determine whether a program requiring out-of-state turnpike users to sign up for a
state discount program violated the dormant Commerce Clause, the Court examined the toll amount and
cited the Evansville/Northwest Airlines test in concluding that the tolls were “ ‘assessed uniformly in direct proportion to the use of the toll facilities and ha[d]
not been shown to be excessive.’ ” (Doc. No. 70 at 27)
(quoting Yerger, 395 F. App’x at 884 n.3). Plaintiffs
maintain that in Wallach, the court determined that
the tolls at issue “represented a fair approximation of
the use conferred” and the tolling authority expended
toll revenue on projects “functionally related” to the
toll system, echoing the Evansville/Northwest Airlines standard. (Id. at 27) (citing Wallach, 930 F.2d at
1071-72). Accordingly, Plaintiffs maintain that Evansville/Northwest Airlines, not Pike, sets forth the appropriate test for analyzing allegedly excessive user fees
and tolls under the dormant Commerce Clause. (Id. at
27.)
Plaintiffs maintain that the Supreme Court has
recognized that the Pike test is appropriate for laws
“directed to legitimate local concerns, with effects upon
interstate commerce that are only incidental.” (Doc.
No. 70 at 28) (citing United Haulers Ass’n, Inc. v.
Oneida-Herkimer Solid Waste Mgmt. Auth., 550 U.S.
330, 346 (2007)). Plaintiffs point out that Evansville
and Northwest Airlines were decided after Pike, but in
neither case did the Supreme Court use the Pike test
to evaluate the user fees at issue in those cases. (Id. at

App. 72
29.) Plaintiffs further argue that no court has utilized
Pike to evaluate whether tolls are excessive and therefore violative of the dormant Commerce Clause. (Id.)
Plaintiffs then turn to an analysis of Act 44/89’s
tolling structure under the Evansville/Northwest Airlines test, and argue that toll receipts, which they allege have exceeded 200 percent of the cost to maintain
and operate the Turnpike, are not based on some fair
approximation of the use of the Turnpike and are excessive in relation to the benefits conferred. (Id. at
30-34.) Plaintiffs point to the allegations of their complaint regarding the non-highway purposes to which
Act 44/89 revenues are dedicated and argue that it is
not sufficient for the Commonwealth Defendants to
assert that providing “access to an extensive and wellmaintained transportation system in the Commonwealth” justifies the wide-ranging expenditure of Act
44/89 toll revenues and confers a benefit on all users
of the Turnpike that fairly approximates their use
of the same. (Id. at 30) (quoting Doc. No. 51 at 22).
In sum, Plaintiffs maintain that the allegations of
their complaint support a reasonable inference that
the Pennsylvania Turnpike tolls (and the Act 44/89 toll
structure that governs them) are not based on some
fair approximation of the use of the Turnpike and
are excessive under the Evansville/Northwest Airlines
standard.
As noted above, Plaintiffs urge the Court to reject
Defendants’ claim of congressional authorization because Congress has not unambiguously authorized States
to impose highway tolls free of dormant Commerce

App. 73
Clause limitations. (Id. at 41.) Plaintiffs maintain that
“for Congress to approve State action that would otherwise violate the Commerce Clause, Congress must
‘affirmatively contemplate otherwise invalid state legislation’ and express an unmistakably clear, unambiguous intent to approve such legislation in the text of a
federal statute.” (Id. at 43) (quoting Wunnicke, 467 U.S.
at 91). Further, Plaintiffs point out that the State
“carries the ‘burden of demonstrating a clear and unambiguous intent on behalf of Congress to permit’ behavior that would otherwise be unconstitutional under
the dormant Commerce Clause.” (Id.) (quoting Wyoming, 502 U.S. at 458).
Plaintiffs maintain that there exists an “historic
animus” against federal funding of toll roads, and argue that while “States are free to build, operate or regulate toll facilities largely as they see fit,” practically,
“the flexibility of State and local governments to deal
with toll facilities is constrained by two factors at the
federal level.” (Id. at 45.) Plaintiffs describe those two
factors as follows: (1) the dormant Commerce Clause,
which “restricts States from imposing undue burdens
upon interstate commerce by means of toll facilities;”
and (2) “if States wish to participate in federal highway
funding programs, they are required to conform to federal requirements and operate tolled facilities in conformity with federal standards.” (Id.)
Plaintiffs argue that Section 1012(a) of ISTEA, the
statute upon which Defendants rely for congressional
authorization of the Act 44/89 toll structure, established certain conditions that States were required to

App. 74
satisfy in order to qualify for federal funds for statetolled facilities, but did not “authorize States or statetolling authorities to do anything.” (Id. at 46.) Plaintiffs
discuss the origins of ISTEA and specifically, Section
1012(a)(1), maintaining that the provision “authorized
the U.S. Secretary of Transportation to make federal
funds available for certain limited types of state-tolled
facilities,” while Section 1012(a)(3) “established conditions that States were required to satisfy in order to
qualify for federal funds.”17 (Id.) Plaintiffs maintain
that while Section 1012(a)(1) “continues to limit the
use of revenue” on the part of States, it did not and does
not “authorize[ ] States to operate their tolling facilities in a manner that violates the dormant Commerce
Clause.” (Id. at 47.)
Plaintiffs further argue that the Defendants’ reliance on the Second Circuit decision in ATA II as
authority for the proposition that Section 1012(a) of
ISTEA expressly authorized Act 44/89’s toll structure
is inapposite because that case analyzed and relied
on a separate section of ISTEA – Section 1012(e), not
Section 1012(a). (Id.) Plaintiffs maintain that Section
1012(e), originally enacted as a Note to Section 129 but
never codified, was specific to New York State in authorizing tolls from the New York Thruway to be utilized to support the New York Canal System, which
was “functionally unrelated to the Thruway.” (Id. at 48.)
Accordingly, Plaintiffs argue that ATA II “says nothing
about whether Congress authorized – in the entirely
17

Section 1012(a)(3) is codified at 23 U.S.C. § 129(a)(3). See
supra note 7.

App. 75
independent Section 1012(a) – any State or local entity
in the country to remedy its local budget shortfalls
through unlimited, unconstitutionally-excessive tolls.”
(Id. at 49.)
In further disputing Defendants’ argument that
Section 1012(a) constitutes express congressional authorization insulating the Act 44/89 toll structure from
dormant Commerce Clause attack, Plaintiffs maintain that Defendants “place undue emphasis on their
twenty-year-old agreement with the [FHWA].” (Id. at
51.) Plaintiffs maintain that the FHWA Agreement
“goes no further” than Section 129(a)(3) in its purpose
to “govern[ ] the use of federal funds received by PTC
and PennDOT,” and because the FHWA “cannot authorize a violation of the Commerce Clause,” it “provides [no] independent justification for [Defendants’]
actions.” (Id. at 52.)
Finally, in disputing Defendants’ argument that
Congress expressly authorized States to expend toll
revenues in the manner contemplated by Act 44/89,
Plaintiffs argue that even assuming arguendo that
Congress did so authorize States in Section 129(a), Defendants have failed to comply with the statutory limitations placed on the exercise of that authority. (Id. at
53.) Specifically, Plaintiffs point to Section 129(a)(3)(A)(v)
and argue that a State can use toll revenues for “projects for which federal funds may otherwise be obligated” only “if the public authority certifies annually
that the tolled facility is being adequately maintained.”
(Id. at 53) (citing 23 U.S.C. § 129(3)(A)(v)). Plaintiffs
maintain that in its alternative motion for summary

App. 76
judgment, the PTC Defendants fail to point to sufficient evidence of record “supporting its contention that
it has made any certifications as required under subparagraph (A)(v) of Section 129(a)(3).” (Id. at 53-57.)
Accordingly, Plaintiffs maintain that even assuming
that Section 129 permits Defendants to expend toll
revenues in the manner contemplated by Act 44/89’s
toll structure, the PTC Defendants have failed to meet
their burden to produce admissible evidentiary materials demonstrating their entitlement to summary
judgment on this ground. (Id. at 57.)
As it relates to their constitutional challenge to
Act 44/89’s tolling structure Plaintiffs argue in sum
that:
there is a huge difference between “excess toll
revenues” that could have been the subject
of Section 1012(a)(3) and “excessive tolls” collected to fund a wide array of state-wide projects that are authorized, administered, and
controlled by PennDOT, not PTC. Even if Congress had opened the door for States to use toll
revenues left over after the repayment of debt
borrowed for the construction, operation, and
maintenance of Turnpike (Senior Revenue
Bonds), there is no support for the proposition
that Congress ever envisioned that any State
would fabricate a statutory scheme that requires a turnpike authority to raise toll rates
with no limit to their amount or the time period they could be imposed to support the
transfer of billions of dollars to State transportation departments (here PennDOT) to

App. 77
support projects with no functional relation to
the tolled facility.
(Id. at 61-62.)18
3. Analysis
The Court has carefully considered the detailed
and well-documented allegations of Plaintiffs’ complaint, as well as the extensive briefing and legal arguments of the parties. As outlined fully above, the
factual predicates for Plaintiffs’ claim are for the most
part undisputed, as the PTC tolls and expenditures are
a matter of public record, as are the statutory origins
of the PTC’s scheme for collecting toll revenues and
transferring funds to PennDOT. What is in dispute is
how five decades of slowly evolving federal law related
to the dormant Commerce Clause informs this Court’s
analysis of whether Plaintiffs’ challenge to excessive
tolls represents a constitutional injury that this Court
is empowered to rectify, or a matter for legislative overhaul.

18

Plaintiffs reference the distinction between Senior Revenue Bonds and Subordinate Revenue Bonds, as alleged in paragraphs 59-64 of their complaint, and maintain that Turnpike tolls
expressly support only Senior Revenue Bonds, while Subordinate
Revenue Bonds are issued for the purpose of fulfilling the PTC’s
statutorily-mandated Act 44/89 payments to PennDOT, arguing
that there is “no support in any statute or statutory history . . .
that suggests a ‘clear and unmistakable’ authorization for PTC to
cripple itself financially or to burden future generations with debt
incurred for purposes that are entirely unrelated to the Turnpike.” (Doc. No. 70 at 63.)

App. 78
The Court notes that the parties maintain wholly
different legal analyses of Plaintiffs’ dormant Commerce
Clause claim. It is no wonder. Even the legitimacy and
parameters of the dormant Commerce Clause are the
subject of continuous vigorous debate.19 The application of the case law implementing the doctrine is no
more conclusive. As explained previously, Plaintiffs
urge this Court to invoke the analysis articulated by
the United States Supreme Court in Evansville/Northwest Airlines (see Doc. No. 70 at 27) (maintaining that
“Evansville stands as the appropriate test for analyzing excessive user fees and tolls”), while Defendants
maintain that the standard set forth in the earlier Pike
decision is the appropriate standard to apply to Plaintiffs’ dormant Commerce Clause claim (see Doc. No. 76
at 17) (maintaining that in the Third Circuit, “Pike
governs challenges to the constitutionality of highway
toll programs”). Consequently, the parties in this case
have characterized these tests as separate, competing standards within the world of dormant Commerce
Clause jurisprudence, rather than two analytical frameworks that may complement, rather than replace, one
another. No definitive controlling precedent supports
19

See Wayfair, 138 S. Ct. at 2100-01 (Gorsuch, J., concurring) (“The Commerce Clause is found in Article I and authorizes
Congress to regulate interstate commerce. Meanwhile our dormant commerce cases suggest Article III courts may invalidate
state laws that offend no congressional statute. Whether and how
much of this can be squared with the text of the Commerce
Clause, justified by stare decisis, or defended as misbranded products of federalism or antidiscrimination imperatives flowing from
Article IV’s Privileges and Immunities Clause are questions for
another day.”).

App. 79
either side. The Third Circuit has never specifically
evaluated Evansville and Pike as competing tests in
any Commerce Clause challenge to highway tolls, nor
has the United States Supreme Court. For the reasons
that follow, upon review of all persuasive and controlling law, this Court finds that the relevant authority
renders Pike the appropriate test for examining Plaintiffs’ dormant Commerce Clause challenge.
Only two relevant cases in the Third Circuit address the applicability of Evansville or Pike to a dormant Commerce Clause challenge to a highway toll,
Wallach v. Brezenoff, 930 F.2d 1070 (3d Cir. 1991),
and Yerger v. Massachusetts Turnpike Authority, 395
F. App’x 878 (3d Cir. 2010). First, in Wallach, the Third
Circuit considered a challenge to a 50% toll increase on
Port Authority of New York and New Jersey bridges
and tunnels. The New Jersey citizen plaintiffs brought
a dormant Commerce Clause challenge asserting that
“no toll increase was necessary to finance the maintenance or costs of the Port Authority’s bridges and tunnels.” Wallach, 930 F.2d at 1072. The Third Circuit
affirmed the district court’s dismissal of Plaintiffs’
claim. In so doing, the court looked to a similar challenge to the very same toll increase analyzed in Automobile Club of New York, Inc. v. Port Authority of New
York & New Jersey, 706 F.Supp. 264 (S.D.N.Y. 1989),
aff ’d, 887 F.2d 417 (2d Cir. 1989). Specifically, the Third
Circuit affirmed the Automobile Club court’s use of a
three-part test derived from Hughes v. Oklahoma, 441
U.S. 322 (1979), to evaluate undue burdens imposed on
interstate commerce by the toll increase, which was

App. 80
derived from Pike. See Wallach, 930 F.2d at 1072; see
also Hughes, 441 U.S. at 336 (assessing “the burden
imposed on interstate commerce” under the “general
rule” established in Pike). Although the Third Circuit
resolved Wallach without a detailed analysis as to the
issue of the governing test for assessing an undue burden claim under the dormant Commerce Clause, the
case was decided using the Pike analysis. See Wallach,
930 F.2d at 1072 (rejecting argument that the “toll increase is an unconstitutional tax on interstate commerce” for the “reasons given by the district court in
the Automobile Club case,” where the court applied the
three-part test from Hughes in addressing a challenge
to a toll increase under the dormant Commerce Clause,
and analyzed “(1) whether the challenged toll increase
had only incidental effects on interstate commerce,
or discriminated against interstate commerce on its
face or in practical effect, (2) whether the toll increase
serves a legitimate local purpose, and (3) whether alternative means were available to promote this purpose
without discriminating against interstate commerce”).
As Plaintiffs note, the Wallach court cited Evansville,
but only with regard to the plaintiffs’ constitutional
right to travel claim.20 See Wallach, 930 F.2d at 1072
(stating that “[t]he Court in Evansville devised a threeprong test for determining when a user fee impermissibly burdens a citizen’s constitutionally protected
right to travel”). Indeed, Wallach does not reference the
applicability of Evansville as to a dormant Commerce
20

As to Evansville’s potential applicability to Plaintiffs’ constitutional right to travel claim, see infra note 24.

App. 81
Clause challenge, thus calling into question the applicability of Evansville to the case at bar.
Second, in Yerger v. Massachusetts Turnpike
Authority, 395 F. App’x 878 (3d Cir. 2010), the Third
Circuit, in a non-precedential opinion, affirmed the
dismissal of a dormant Commerce Clause challenge to
a discount toll program that offered toll discounts to
subscribers of the Massachusetts Turnpike Authority
(“MTA”)’s electronic toll program, but not to users of
competing systems in other states. The court first concluded that the program did not discriminate against
interstate commerce on its face or in effect in that: it
was available on equal terms to motorists regardless of
residence; it incorporated no distinctions based on residence; and participation in the program was open to
everyone, and that when a toll program does not discriminate against interstate commerce on its face or in
effect, Pike articulates the appropriate standard for assessing any “undue burden” on interstate commerce.
Id. at 882-84. While the court acknowledged in a footnote that “the [challenged toll discount] also passes the
Evansville test for determining the validity of a levy or
toll,” id. at 884 n.3, the court ultimately applied Pike
to the challenged tolls in finding that there was no
dormant Commerce Clause violation. Because this reference to Evansville was not necessary to the court’s
reasoning, and, therefore, constitutes dicta, this Court
finds that Yerger provides no additional clarity regarding the potential interplay between the Pike and Evansville tests with regard to the dormant Commerce
Clause challenge presently before this Court.

App. 82
In addition, it is noteworthy that Plaintiffs generally rely on case law from the First and Second Circuits
to support their argument as to the applicability of Evansville to their dormant Commerce Clause challenge.
This Court, however, finds that those decisions do not
adequately explain the relationship between Pike and
Evansville for purposes of Plaintiffs’ claim. In Doran v.
Massachusetts Turnpike Authority, 348 F.3d 315 (1st
Cir. 2003), the First Circuit examined the constitutionality of a discount tolling program and affirmed the
district court’s grant of the defendant’s motion to dismiss, finding no dormant Commerce Clause violation.
In Doran, the plaintiffs made four arguments: “(1) [t]hat
the [discount toll program] imposes a nonuniform and
noncompensatory user fee unrelated to actual highway
usage; (2) [t]hat it is discriminatory on its face or in
practical effect; (3) [t]hat it does not serve a legitimate
local interest unrelated to economic protectionism; and
(4) [t]hat its cumulative effects on commerce, by shifting highway costs to nonresidents, are excessive.” Id.
at 318. In support of their first argument, the plaintiffs
relied primarily on American Trucking Associations,
Inc. v. Scheiner, 483 U.S. 266 (1987), where the Supreme Court examined the validity of a flat tax imposed by Pennsylvania on trucks that varied according
to whether the trucks were registered in-state or outof-state, and described the pertinent inquiry as whether
the taxes discriminated against some participants
in interstate commerce, holding that “the Commerce
Clause prohibits a State from imposing a heavier tax
burden on out-of-state businesses that compete in an
interstate market than it imposes on its own residents

App. 83
who also engage in commerce among States.” Scheiner,
483 U.S. at 282. In addressing plaintiffs’ first argument
regarding the tolling program as a user fee, the Doran
court applied Evansville in concluding that there was
no violation of the dormant Commerce Clause, and
as to the plaintiffs’ third and fourth arguments, the
Doran court stated that Pike is inapposite where there
is no showing that a non-resident pays a “disproportionate share of the state’s highway costs” compared to
a resident. Doran, 348 F.3d at 322. The court stated,
however, that in the event Pike applied, the tolling
structure also passed constitutional muster under the
associated inquiry. Id.
Importantly, one district court in the First Circuit
has described Doran as recognizing the Pike and Evansville tests as “alternate tests, not substitutes for
one another,” and noted that “[t]he Northwest Airlines
test is applied when reviewing the constitutionality of
a tax or penalty imposed directly on interstate commerce. The Pike test, on the other hand, is the test to
be applied when a concessionary benefit that incidentally impacts interstate commerce is granted to instate residents.” See Surprenant v. Mass. Tpk. Auth.,
No. 09-cv-10428-RGS, 2010 WL 785306, at *6 n.11
(D.R.I. Mar. 4, 2010).21 In addition, in Cohen v. Rhode
Island Turnpike and Bridge Authority, 775 F.Supp.2d
21

In Surprenant, the plaintiffs challenged on dormant Commerce Clause and right to travel grounds certain bridge and tunnel tolls that included discount programs that varied according
to resident or non-resident status. See Surprenant, 2010 WL
785306, at *3.

App. 84
439 (D.R.I. 2011), the district court emphasized that
because the First Circuit in Doran applied Evansville/
Northwest Airlines to a challenge to a discount toll program under the dormant Commerce Clause, the court
was “not free to apply any other test to this case. However, it must be noted that state and federal courts in
Massachusetts have applied alternative tests in assessing similar challenges to the constitutionality of
highway tolls.” Id. at 446 n.6. In Cohen, after qualifying its use of Evansville, the district court ultimately
concluded that under Evansville, the discount toll program did not violate the dormant Commerce Clause.
Id. at 450.
Further, in Selevan v. New York Thruway Authority, 584 F.3d 82 (2d Cir. 2009) (“Selevan I”), the Second
Circuit vacated the dismissal of a challenge to the New
York Thruway Authority (“NYTA”)’s toll discount program that charged non-residents of Grand Island tolls
eight times greater than those charged to residents of
Grand Island, concluding that the plaintiffs had established both Article III and prudential standing as to
their dormant Commerce Clause claim. Specifically,
the Court of Appeals noted that the district court, after
determining that plaintiffs failed to allege that the
NYTA policy “discriminated” against interstate commerce, failed to inquire if the policy otherwise violated
the Commerce Clause under Pike. See Selevan I, 584
F.3d at 95. The Second Circuit remanded the matter
to the district court with instructions that the district
court evaluate the tolls under the standard articulated in
Evansville. Id. at 96. The Second Circuit acknowledged

App. 85
that “the [Supreme] Court has not used the Northwest
Airlines test to evaluate the constitutionality of a highway toll nor has it indicated whether the Pike test or
the Northwest Airlines test should apply when highway tolls are challenged.” Id. The Court of Appeals further stated that it viewed “factors one and two of the
Northwest Airlines test [as] achiev[ing] the same end
as Pike – the invalidation of state policies that impose
an undue burden on interstate commerce – inasmuch
as they require the court to consider whether the fee
supplies a benefit to users of a facility that is at least
roughly commensurate with the burden it imposes
on them.” Id. at 97. Accordingly, the court held that
Evansville/Northwest Airlines governed the analysis
of the constitutionality of a highway toll under the
dormant Commerce Clause. Id. at 98.22

22

The court acknowledged that the Second Circuit previously applied the Northwest Airlines test to assess the constitutionality of a ferry passenger fee in Bridgeport & Port Jefferson
Steamboat Company, 567 F.3d 79 (2d Cir. 2009). Following remand, the district court ultimately granted summary judgment
in favor of defendants, finding no violation of the dormant Commerce Clause, and the Second Circuit affirmed this decision. Selevan v. N.Y. State Thruway Auth., 711 F.3d 253 (2d Cir. 2013)
(“Selevan II”); see also Am. Trucking Assn’s, Inc. v. N.Y. State
Thruway Auth., 199 F.Supp.3d 855 (S.D.N.Y. 2016) (“ATA I”) (following Selevan I and applying the Evansville/Northwest Airlines
test to a dormant Commerce Clause challenge to a trucking toll),
order vacated on other grounds, 238 F.Supp.3d 527 (S.D.N.Y.
2017), aff ’d, 886 F.3d 238 (2d Cir. 2018) (“ATA II”) (finding that
toll structure was expressly authorized by congressional legislation and therefore invulnerable to dormant Commerce Clause attack).

App. 86
Finally, in assessing the unsettled landscape against
which this Court is asked to make a determination as
to whether Pike or Evansville/Northwest Airlines applies to Plaintiffs’ dormant Commerce Clause claim,
the Court notes that in neither Doran nor in Selevan I
did the parties characterize these tests as competing
analyses from which the Court must select the more
appropriate standard to apply, as the parties do here.
(Doc. No. 70 at 74) (“Evansville, not Pike, is the proper
standard.”); (Doc. No. 56 at 11) (“[T]he correct test
in the Third Circuit is the one laid out in Pike.”). In
Doran, as noted above, the parties (and the court)
treated the tests as potential alternative analyses, and
in Selevan I, while the Second Circuit directed the district court to apply Evansville on remand, there is no
indication that the issue was actively litigated at the
trial court level, ostensibly because the district court
opinion focused almost entirely on the issue of standing. Accordingly, the Court finds that neither the First
nor the Second Circuit was faced with the same issue
confronting this Court, rendering Selevan I and Doran
only somewhat persuasive authority with questionable
applicability to the precise question presented in the
case at bar.
Moreover, during the pendency of this case, the
United States Supreme Court announced “the analytical framework that now prevails for Commerce Clause
cases” in South Dakota v. Wayfair, Inc., 138 S. Ct. 2080,
2090, ___ U.S. ___ (2018). In this case, which, importantly, did not involve a dormant Commerce Clause
challenge to a toll or fee, the Court reiterated that the

App. 87
“two primary principles” governing a State’s authority
to regulate interstate commerce are that: “[f ]irst, state
regulations may not discriminate against interstate
commerce, and second, States may not impose undue
burdens on interstate commerce.” Id. at 2090-91. As to
“undue burdens,” the Court stated that Pike sets down
the appropriate standard for evaluating the existence
of such a burden on interstate commerce imposed by
law, providing that “[s]tate laws that ‘regulat[e] evenhandedly to effectuate a legitimate local public interest . . . will be upheld unless the burden imposed on
such commerce is clearly excessive in relation to the
putative local benefits.’ ” See Wayfair, 138 S. Ct. at 2091
(quoting Pike, 397 U.S. at 142); see also Dep’t of Revenue of Ky. v. Davis, 553 U.S. 328, 353 (2008) (“Concluding that a state law does not amount to forbidden
discrimination against interstate commerce is not
the death knell of all dormant Commerce Clause challenges, for we generally leave the courtroom door open
to plaintiffs invoking the rule in Pike, that even nondiscriminatory burdens on commerce may be struck
down on a showing that those burdens clearly outweigh the benefits of a state or local practice.”). While
the Supreme Court recently emphasized the applicability of Pike generally, this emphasis has generally
appeared in the Third Circuit’s recent dormant Commerce Clause jurisprudence where a challenged law or
program does not discriminate so as to favor in-state
residents or interests, as well. See, e.g., Heffner v. Murphy, 745 F.3d 56, 72 (3d Cir. 2014) (stating that in connection with a dormant Commerce Clause challenge “[i]f
we determine that heightened scrutiny is inapplicable

App. 88
because the [statute’s] provisions do not discriminate
in favor of in-state interests, we then must balance interests pursuant to Pike”).
Upon consideration of all of the above authorities,
and noting the Supreme Court’s recent articulation of
Pike as the standard governing dormant Commerce
Clause challenges on undue burden grounds, which
comports with the limited precedent in the Third Circuit on this issue in the context of highway tolls, the
Court is persuaded that, as between Evansville/Northwest Airlines and Pike, for purposes of the specific
issue raised by the parties here, Pike provides the appropriate test against which to assess the allegations
of Plaintiffs’ complaint in the context of a dormant
Commerce Clause challenge.
Having concluded that Pike governs Plaintiffs’
dormant Commerce Clause claim, the Court is required to assess, with regard to “[s]tate laws that ‘regulat[e] even-handedly to effectuate a legitimate local
public interest,’ ” whether “ ‘the burden imposed on such
commerce is clearly excessive in relation to the putative local benefits.’ ” Wayfair, 138 S. Ct. at 2090-91
(quoting Pike, 397 U.S. at 142). As noted above, this
inquiry is appropriate where, as here, plaintiffs do
not allege that the challenged statute discriminates
against interstate commerce, but rather allege that the
challenged statute imposes undue burdens on interstate commerce. Pike balancing requires a determination of “whether the [statute’s] burdens on interstate
commerce substantially outweigh the putative local
benefits.” Heffner, 745 F.3d at 71 (internal quotation

App. 89
marks omitted). The Third Circuit has described “[t]he
‘incidental burdens’ that we must assess under Pike”
as “consist[ing] of ‘the degree to which the state action
incidentally discriminates against interstate commerce
relative to intrastate commerce.’ ” Id. at 73 (quoting
Norfolk S. Corp. v. Oberly, 822 F.2d 388, 406 (3d Cir.
1987)). Accordingly, the Court examines the relative
burdens on in-state and out-of-state interests, and
where the challenged statute “imposes the very same
burdens” on both sets of interests, it is a “burden on
commerce without discriminating against interstate
commerce.” Id. (citing Instructional Sys., Inc. v. Computer Curriculum Corp., 35 F.3d 813, 826-27 (3d Cir.
1994)).
Assessed against the above standard, the Court
agrees with the PTC and Commonwealth Defendants
that the tolls complained of (and governed by Act
44/89), alleged to burden in-state and out-of-state drivers on the Turnpike equally by charging them identical
tolls, impose a burden on commerce as opposed to a
burden on interstate commerce. This effectively disposes of Plaintiffs’ dormant Commerce Clause challenge under Pike. See Instructional Sys., Inc., 35 F.3d
at 827 (reversing district court decision and holding
that state statute did not impose a burden on interstate commerce under Pike’s balancing test because
“although [the relevant statute] may burden commerce, it creates no incidental burdens on interstate
commerce for purposes of Pike balancing,” and “[i]n the
absence of such a burden, an analysis of the ‘putative
local benefits’ of [the relevant statute] is unnecessary”).

App. 90
Accordingly, the Court will grant the Commonwealth
and PTC Defendants’ motions to dismiss Plaintiffs’
dormant Commerce Clause challenge.23
B. Plaintiffs’ Claim that Act 44/89 Violates
the Constitutional Right to Travel
1. Applicable Legal Standard
While the right to “travel” is not explicitly found in
the Constitution, the United States Supreme Court
has stated that the “ ‘constitutional right to travel
from one State to another’ is firmly embedded in our
23

The application of the Pike standard forecloses at this
stage this Court’s review of the substantial question as to whether
Congress has specifically authorized the expenditure of toll revenues contemplated by Act 44/89, raised by the PTC and Commonwealth Defendants as an alternative basis for the dismissal of
Plaintiffs’ dormant Commerce Clause challenge. As detailed above,
the parties agree that, even where challenged state action might
otherwise violate the dormant Commerce Clause, if state action
is specifically authorized by Congress, it is insulated from dormant Commerce Clause attack. Following this principle, in American Trucking Associations, Incorporated v. New York State
Thruway Authority, 238 F.Supp.3d 527 (S.D.N.Y. 2017), aff ’d,
886 F.3d 238 (2d Cir. 2018), the district court, having previously
found that a toll violated the dormant Commerce Clause, readily
dismissed the challenge when presented with specific congressional authorization for the funding scheme. Id. at 540-41. Here,
Plaintiffs test Defendants’ blanket claim of congressional authorization, questioning whether Defendants have complied with the
limitations placed on the exercise of that alleged authority, along
with the source of congressional authorization itself. However, as
noted above, the Court’s conclusion that Plaintiffs’ complaint fails
to state a dormant Commerce Clause claim under Pike renders
the Court’s resolution of this substantial question unnecessary at
this time.

App. 91
jurisprudence.” Saenz v. Roe, 526 U.S. 489, 498 (1999)
(quoting U.S. v. Guest, 383 U.S. 745, 757 (1966)). That
right “embraces at least three different components. It
protects the right of a citizen of one State to enter and
to leave another State, the right to be treated as a welcome visitor rather than an unfriendly alien when
temporarily present in the second State, and, for those
travelers who elect to become permanent residents, the
right to be treated like other citizens of that State.” Id.
at 500. State laws implicate the right to travel (1) when
such laws actually deter travel; (2) when impeding
travel is the primary objective of the law; or (3) when
the law uses a classification that penalizes travel. See
Att’y Gen. of N.Y. v. Soto-Lopez, 476 U.S. 898, 903
(1986) (internal quotations and citations omitted).
In United States v. Baroni, 909 F.3d 550 (3d Cir.
2018), the Third Circuit recently acknowledged that
while the Supreme Court has not recognized a constitutional right to “intrastate” travel, this Circuit recognized such a right in Lutz v. City of York, 899 F.2d 255
(3d Cir. 1990), where the court located a constitutional
right to intrastate travel in the substantive due process clause of the United States Constitution and held
that a local ordinance outlawing “cruising” was a reasonable time, place, and manner restriction on the
right of localized intrastate travel. (Id. at 268-70.) In
Baroni, the Third Circuit noted that the First, Second,
and Sixth Circuits have also recognized a right to intrastate travel; however, the court stated that “there is
hardly a ‘robust consensus’ that the right exists, let

App. 92
alone clarity as to its contours.” Baroni, 909 F.3d at
587-88.
2. Arguments of the parties
a. Commonwealth Defendants
At the outset, the Commonwealth Defendants
highlight that, of the three recognized components of a
constitutional right to travel, only the “right of a citizen of one State to enter and to leave another State”
could “possibly be implicated” by the allegations in
Plaintiffs’ complaint. (Doc. No. 51 at 31.) Therefore, the
Commonwealth Defendants characterize Plaintiffs’
claim as asserting that “Act 44/89, by allegedly requiring Turnpike tolls above the level necessary to fund
Turnpike operations, actually deters interstate travel.”
(Id. at 32.) The Commonwealth Defendants argue that
paragraph 128 of Plaintiffs’ complaint asserts only a
conclusory allegation to this effect without any factual
support, and maintain that “the Supreme Court has
rejected the notion that a state-imposed fee on the use
of interstate travel facilities impermissibly burdens
the constitutional right to travel,” citing EvansvilleVanderburgh, 405 U.S. at 711-14. (Id. at 33.) Finally,
the Commonwealth Defendants maintain that even
assuming that “the level of Turnpike tolls did somehow
deter travelers from using the Turnpike, this would not
mean that the tolls (or Act 44/89) actually deter interstate travel in or through Pennsylvania,” because the
“right to interstate travel does not mean a traveler has
a constitutional right to the most convenient form of

App. 93
travel.” (Id.) (citing Town of Southold v. Town of E.
Hampton, 477 F.3d 38, 54 (2d Cir. 2007) (stating that
“travelers do not have a constitutional right to the
most convenient form of travel” (internal quotation
marks omitted))). The Commonwealth Defendants
argue that in light of the availability of “alternative
toll-free routes” acknowledged by Plaintiffs in their
complaint (Doc. No. 1 ¶ 99), the allegations of Plaintiffs’ complaint fail to support a reasonable inference
that Act 44/89 violates the constitutional right to
travel (Doc. No. 51 at 34).
b. PTC Defendants
The PTC Defendants similarly argue that a “nondiscriminatory burden like a highway toll does not deter interstate travel in a constitutional sense,” pointing
out that Plaintiffs’ complaint indicates that alternative toll-free highways exist. (Doc. No. 56 at 33) (citing
Doc. No. 1 ¶ 99). Along those lines, the PTC Defendants
maintain that while drivers might prefer to use the
“convenient and more direct Turnpike,” the imposition
of “ ‘burdens on a single mode of transportation do not
implicate the right to interstate travel.’ ” (Doc. No. 56
at 33) (quoting Miller v. Reed, 176 F.3d 1202, 1205 (9th
Cir. 1999) (stating that “[b]urdens placed on travel
generally, such as gasoline taxes, or minor burdens impacting interstate travel, such as toll roads, do not constitute a violation of ” the right to travel)). The PTC
Defendants argue that “[a]t most, Plaintiffs have alleged a burden on traveling their chosen route through
Pennsylvania, not on their right to travel generally.”

App. 94
(Doc. No. 76 at 24.) Accordingly, the PTC Defendants
maintain that the allegations of Plaintiffs’ complaint
fail to support a reasonable inference that the toll
structure imposed by Act 44/89 violates the constitutional right to travel.
c. Plaintiffs
In opposition to the arguments of the Commonwealth and PTC Defendants as to any alleged violation
of the constitutional right to travel resulting from
Turnpike toll structure established by Act 44/89, the
Plaintiffs rely largely on Crandall v. Nevada, 73 U.S. (6
Wall.) 35 (1867), in which the Supreme Court invalidated a Nevada statute levying a “tax of one dollar
upon every person leaving the State by any railroad,
stage coach, or other vehicle engaged or employed in
the business of transporting passengers for hire.”
Crandall, 73 U.S. at 36. Plaintiffs argue that here, as
in Crandall, the relevant issue is whether the toll levied is in any way comparable to the benefit provided,
and that if it is not, “the constitutional violation is
self-evident.” (Doc. No. 70 at 38-39.) Plaintiffs maintain that the Evansville/Northwest Airlines test is the
relevant standard for determining “[i]f fees or tolls
charged for use of a state-provided facility are reasonable and not excessive in comparison to the benefits
provided to the payers for use of the facility” – or in
other words, if they do not “offend the Constitution.”
(Id. at 39.)

App. 95
3. Analysis
Upon careful consideration of the arguments of
the parties, the relevant authorities, and the allegations of Plaintiffs’ complaint, this Court is unpersuaded by Plaintiffs’ argument that the allegations set
forth in their complaint support a reasonable inference
that the provisions of Act 44/89 constitute a violation
of the constitutional right to travel. As all parties appear to agree, the only component of the constitutional
right to travel recognized by the Supreme Court ostensibly implicated by Plaintiffs’ allegations is the “right
of a citizen of one State to enter and to leave another
State.” See Saenz, 526 U.S. at 500. Further, as all parties similarly appear to agree, because Plaintiffs’ complaint makes no allegations that impeding travel is the
primary objective of Act 44/89, or that Act 44/89 utilizes a classification that penalizes travel, Plaintiffs’
claim is properly viewed as alleging that Act 44/89
actually deters travel. However, as Defendants note,
Plaintiffs’ complaint does not allege that any traveler
has been deterred from traveling through Pennsylvania by Turnpike tolls, but instead points to comments
by the Pennsylvania Auditor General to the effect that
travelers may seek alternative, toll-free routes through
the Commonwealth to avoid the payment of Turnpike
tolls. (Doc. No. 1 ¶ 99.) Assuming the truth of those allegations, the Court concludes that they do not amount
to facts supporting a reasonable inference that the
constitutional right to travel has been burdened by the
toll structure imposed by Act 44/89; rather, they support a reasonable inference that the right to travel a

App. 96
particular route through Pennsylvania (i.e., the Turnpike) may at some point be deterred by the cost of
Turnpike tolls. See Town of Southold, 477 F.3d at 54
(stating that a burden on the most convenient form of
travel is not a burden on the constitutional right to
travel); Miller, 176 F.3d at 1205 (stating that “burdens
on a single mode of transportation do not implicate the
right to interstate travel”).
The Court is also unpersuaded by Plaintiffs’ reliance on Crandall v. Nevada to support their right to
travel claim because in that case, as noted above, the
Supreme Court struck down a statute that levied a fee
on every person leaving the state by way of a common
carrier and articulated its concern that, if the levy
were permitted, “[s]tates covering the only practicable
routes of travel from the east to the west, or from the
north to the south, may totally prevent or seriously
burden all transportation of passengers from one part
of the country to the other.” Crandall, 73 U.S. at 46. In
contrast, Plaintiffs’ complaint does not allege that the
Turnpike is “the only practicable route[ ] of travel”
through Pennsylvania. Moreover, based on subsequent
case law, the Court finds that a narrow construction of
Crandall is appropriate. See Lutz, 899 F.2d at 264-65
(noting that Crandall simply “recognized a right to
travel insofar as travel is necessary for the transaction
of business between the national government and its
citizenry,” and that the Supreme Court has declined to
extend “Crandall into a generalized right of free movement throughout the United States”). The Court finds
that the allegations in Plaintiffs’ complaint fail to

App. 97
support a reasonable inference that the constitutional
right to travel is burdened by the toll structure of Act
44/89.24 Accordingly, the Court will grant the Commonwealth and PTC Defendants’ motions to dismiss Plaintiffs’ constitutional right to travel claim.
IV. CONCLUSION
The Court has carefully reviewed Plaintiffs’ complaint and the legal authority submitted in support of
the complaint. Plaintiffs’ complaint credibly alleges
that Pennsylvania’s policy decisions related to transportation have resulted in a statutory scheme that disproportionately burdens Turnpike travelers with the
costs of a state-wide transportation system that is of
no direct benefit to them. Evaluating Plaintiffs’ wellarticulated complaint applying established Supreme
Court and Third Circuit precedent that limits the
breadth of the constitutional claims asserted here, this
Court is constrained to find that Plaintiffs’ factual allegations do not support a claim for violations of the
dormant Commerce Clause or the constitutional right
24

Assuming Plaintiffs’ complaint alleged a burden that implicated the constitutional right to travel, the Court is similarly
unpersuaded by Plaintiffs’ argument that Evansville/Northwest
Airlines provides the appropriate test for evaluating any such
burden. As noted by Defendants, that test preceded the Supreme
Court’s decision in Saenz v. Roe, which articulated the elements
of a constitutional right to travel claim. See Ullmo v. Ohio Tpk. &
Infrastructure Comm’n, 126 F. Supp. 3d 910, 918 n.4 (N.D. Ohio
2015) (rejecting the argument that “the test set forth in Northwest Airlines applies to [the] right to travel claim,” and distinguishing Wallach’s use of that test in that context on the basis
that it “predates” the Supreme Court’s decision in Saenz).

App. 98
to travel. Accordingly, for all of the reasons stated
herein, the Court will grant the PTC Defendants’ and
Commonwealth Defendants’ motions to dismiss. In light
of the Court’s determination that Plaintiffs’ complaint
fails to state a claim upon which relief may be granted
for violations of the dormant Commerce Clause or constitutional right to travel, the Court need not address
the various immunity issues raised by individual defendants Shuey’s and Lieberman’s motions to dismiss,
and, therefore, those motions will be denied as moot.
Plaintiffs’ motion for partial summary judgment will
also be denied. An appropriate Order follows.

App. 99
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
OWNER OPERATOR
INDEPENDENT DRIVERS
ASSOCIATION, INC., et al.,
Plaintiffs

:
: No. 1:18-cv-00608
: (Judge Kane)
:
:
v.
:
PENNSYLVANIA TURN- :
PIKE COMMISSION, et al., :
Defendants
:
ORDER
(Filed Apr. 4, 2019)

AND NOW, on this 4th day of April 2019, upon
consideration of: (1) Defendant Craig R. Shuey’s Motion to Dismiss (Doc. No. 49); (2) Defendants Tom Wolf,
Governor of the Commonwealth of Pennsylvania, and
Leslie S. Richards, Chair of the Pennsylvania Turnpike
Commission and Secretary of the Pennsylvania Department of Transportation (collectively, the “Commonwealth Defendants”)’ Motion to Dismiss (Doc. No.
50); (3) the Pennsylvania Turnpike Commission (the
“PTC”), William K. Lieberman, Vice Chair of the PTC,
Barry T. Drew, Secretary Treasurer of the PTC,
Pasquale T. Deon, Sr., Commissioner of the PTC, John
N. Wozniak, Commissioner of the PTC, Mark P. Compton, Chief Executive Officer of the PTC, and Craig R.
Shuey, Chief Operating Officer of the PTC (collectively,
the “PTC Defendants”)’ Motion to Dismiss, or in the
Alternative, Motion for Summary Judgment (Doc. No.

App. 100
52); (4) Defendant William K. Lieberman’s Motion to
Dismiss (Doc. No. 53); (5) Plaintiffs’ Motion to Certify
Class and Appoint Class Counsel (Doc. No. 73); and (6)
Plaintiffs’ Motion for Partial Summary Judgment (Doc.
No. 84), IT IS ORDERED THAT:
1.

The Commonwealth Defendants’ and PTC
Defendants’ Motions to Dismiss (Doc. Nos. 50
and 52), are GRANTED;

2.

Defendants Shuey’s and Lieberman’s Motions
to Dismiss (Doc. Nos. 49 and 53), are DENIED AS MOOT;

3.

Plaintiffs’ Motion for Partial Summary Judgment (Doc. No. 84), is DENIED;

4.

Plaintiffs’ Motion to Certify Class and Appoint Class Counsel (Doc. No. 73), is DENIED
AS MOOT; and

5.

The Clerk of Court is directed to CLOSE this
case.
s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

App. 101
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
---------------------------------------------------

No. 19-1775
---------------------------------------------------

OWNER OPERATOR INDEPENDENT
DRIVERS ASSOCIATION, INC.; NATIONAL
MOTORIST ASSOCIATION; MARION L. SPRAY;
B.L. REEVER TRANSPORT, INC.; FLAT ROCK
TRANSPORTATION, LLC; MILLIGAN TRUCKING,
INC.*; FRANK SCAVO; LAURENCE G. TARR,
Appellants
v.
PENNSYLVANIA TURNPIKE COMMISSION;
LESLIE S. RICHARDS, in her individual capacity
and her official capacities as Chair of the PTC and
Secretary of the Department of Transportation;
WILLIAM K. LIEBERMAN, in his individual capacity
and his official capacity as Vice Chair of the PTC;
BARRY T. DREW, in his individual capacity and his
official capacity as Secretary-Treasurer of the PTC;
PASQUALE T. DEON, SR., in his individual capacity
and his official capacity as Commissioner of the PTC;
JOHN N. WOZNIAK, in his individual capacity and
his official capacity as Commissioner of the PTC;
MARK P. COMPTON, in his individual capacity and
his official capacity as Chief Executive Officer of the
PTC; CRAIG R. SHUEY, in his individual capacity
and his official capacity as Chief Operating Officer
of the PTC; TOM WOLF, Governor of the
Commonwealth of Pennsylvania, in his individual
capacity and his official capacity as Governor
*(Amended as per the Clerk’s 04/25/19 Order)

App. 102
---------------------------------------------------------------------------------------------------------------

(D.C. No. 1-18-cv-00608)
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed Sep. 12, 2019)
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS, and *FUENTES, Circuit Judges
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/Patty Shwartz
Circuit Judge
Dated: September 12, 2019
Lmr/cc: Melissa A. Chapaska
Paul D. Cullen, Sr.
Paul D. Cullen, Jr.
Kathleen B. Havener
Kevin J. McKeon
* Hon. Julio M. Fuentes vote is limited to panel rehearing only.

App. 103
Charles R. Stinson
Dennis Whitaker
Robert L. Byer
Leah A. Mintz
Lawrence H. Pockers
Brian J. Slipakoff
Arleigh P. Helfer, III
Bruce P. Merenstein
Alex M. Lacey
Robert M. Linn
Thomas M. Fisher
Miguel A. Estrada

App. 104
Act 44*
GENERAL LOCAL GOVERNMENT CODE
(53 PA.C.S.), TRANSPORTATION (74 PA.C.S.)
AND VEHICLE CODE (75 PA.C.S.) –
OMNIBUS AMENDMENTS
Act of Jul. 18, 2007, P.L. 169, No. 44 Cl. 53
Session of 2007
No. 2007-44
HB 1590
AN ACT
Amending Titles 53 (Municipalities Generally), 74
(Transportation) and 75 (Vehicles) of the Pennsylvania Consolidated Statutes, providing for minority and women-owned business participation;
authorizing local taxation for public transportation assistance; repealing provisions relating to
public transportation assistance; providing for
transportation issues and for sustainable mobility
options; consolidating the Turnpike Organization,
Extension and Toll Road Conversion Act; providing for Turnpike Commission Standards of Conduct; in provisions on the Pennsylvania Turnpike,
further providing for definitions, for authorizations and for conversion to toll roads and providing
for conversion of Interstate 80, for application, for
lease of Interstate 80, for payments, for other interstate highways, for fund distribution, for impact, for financial plan and for nonperformance; in
taxes for highway maintenance and construction,
providing for definitions; further providing for
* A complete version of this document is available at:
http://www.legis.state.pa.us/cfdocs/legis/li/uconsCheck.cfm?yr=
2007&s essInd=0&act=44#

App. 105
imposition and for allocation of proceeds; providing for special revenue bonds, for expenses, for
application of proceeds of obligations, for trust indenture, for exemption, for pledged revenues, for
special revenue refunding bonds, for remedies, for
Motor License Fund proceeds, for construction and
for funding; and making related repeals.
The General Assembly of the Commonwealth of
Pennsylvania hereby enacts as follows:
Section 1. Title 53 of the Pennsylvania Consolidated Statutes is amended by adding a chapter to read:
CHAPTER 86
TAXATION FOR PUBLIC TRANSPORTATION
Sec.
8601. Scope of chapter.
8602. Local financial support.
§ 8601. Scope of chapter.
This chapter relates to local funding for sustainable mobility options.
§ 8602.

Local financial support.

(a) Imposition. – Notwithstanding any other
provision of law, a county of the second class
may obtain financial support for transit systems
by imposing one or more of the taxes under subsection (b). Money obtained from the imposition
shall be deposited into a restricted account of
the county.

App. 106
(b)

Taxes. –

(1) A county of the second class may, by
ordinance, impose any of the following taxes:
(i) A tax on the sale at retail of liquor and malt and brewed beverages
within the county. The ordinance shall
be modeled on the act of June 10, 1971
(P.L.153, No.7), known as the First Class
School District Liquor Sales Tax Act of
1971, and the rate of tax authorized under this subparagraph may not exceed
the rate established under that act.
(ii) An excise tax on each renting of
a rental vehicle in the county. The rate of
tax authorized under this subparagraph
may not exceed the rate established under section 2301(e) of the act of March 4,
1971 (P.L.6, No.2), known as the Tax Reform Code of 1971. As used in this subparagraph, the term “rental vehicle” has
the meaning given to it in section 1601-A
of the Tax Reform Code of 1971.
(2)

(Reserved).

(c) Definition. – For purposes of this section, the term “county of the second class” shall
not include a county of the second class A.

App. 107
Section 1.1.
tion to read:

Title 74 is amended by adding a sec-

§ 303. Minority and women-owned business
participation.
(a) General rule. – In administering the
provisions of this title, the department and any
local transportation organization
*

*

*

(2) The act of June 25, 1982 (P.L.633,
No.181), known as the Regulatory Review Act.
Section 4.
read:
§ 8901.

Section 8901 of Title 75 is amended to

Definitions.

The following words and phrases when used in
this chapter shall have the meanings given to them in
this section unless the context clearly indicates otherwise:
“Annual additional payments.” As follows:
(1) During the conversion period and
after the conversion date, an amount equal
to the scheduled annual commission contribution, minus the sum of:
(i) $200,000,000 paid as annual base
payments;
(ii) any Interstate 80 savings for
that fiscal year.

App. 108
(2) If the conversion period has expired
and a conversion notice has not been received by the secretary, in each subsequent
fiscal year until the end of the term of the
lease agreement, the annual additional payments shall be $250,000,000.
“Annual base payments.” An amount
equal to the sum of the following:
(1) Annual debt service on outstanding
bonds issued under section 9511.2 (relating
to special revenue bonds) payable as required pursuant to the bonds.
(2) Two hundred million dollars payable annually in four equal installments each
due the last business day of each July, October, January and April.
“Annual surplus payments.” An amount
equal to the general reserve fund surplus
payable for each fiscal year until the end of
the term of the lease agreement.
“Auditor General’s certificate.” The certificate issued by the Auditor General within
180 days after the end of each fiscal year of
the Pennsylvania Turnpike Commission certifying all of the following:
(1) The amount of the general reserve
fund surplus for the fiscal year.
(2) After review of the commission’s
current ten-year capital plan, that the transfer of the general reserve fund surplus under
section 8915.3 (relating to lease of Interstate

App. 109
80; related agreements) shall not impair the
ability of the commission to meet its obligations under the lease agreement or the commission’s ten-year capital plan.
“Commission.” The Pennsylvania Turnpike
Commission.
“Conversion date.” The date set forth in
the conversion notice when the Pennsylvania Turnpike Commission intends to exercise its option to convert Interstate 80 to a
toll road.
“Conversion notice.” Written notice to
the Secretary of Transportation from the
Pennsylvania Turnpike Commission providing notice of its intent to exercise its options
to convert Interstate 80 under section
8915.3(3) (relating to lease of Interstate 80;
related agreements).
“Conversion period.” A period of three
years:
(1) which begins on the date of execution of the lease agreement; and
(2) during which the Pennsylvania
Turnpike Commission may give the Department of Transportation conversion notice or
notice that the commission has exercised its
option to extend the conversion period pursuant to section 8915.3(2) (relating to lease of
Interstate 80; related agreements).
“Fiscal year.” The fiscal year of the Commonwealth.

App. 110
“General reserve fund surplus.” The
amount which:
(1) is certified by the Auditor General
in the Auditor General’s certificate as existing in the Pennsylvania Turnpike Commission’s general reserve fund on the last day of
the fiscal year of the commission; and
(2) is not required to be retained in
the general reserve fund pursuant to any
financial documents, financial covenants, insurance policies, liquidity policies or agreements in effect at the commission.
“Interstate 80 savings.” An amount equal
to the following:
(1) Prior to the conversion date, the
amount shall be zero.
(2) In the first fiscal year, including the
conversion date, the amount shall be a pro
rata share of $116,985,856 calculated using
the number of calendar days in the year after the conversion date divided by 365 days.
(3) In the fiscal year succeeding the
year, including the conversion date, the
amount shall be $121,665,290.
(4) In subsequent fiscal years, the
amount shall be the amount calculated for
the previous year increased by 4%.
“Lease agreement.” A lease agreement
between the Department of Transportation
and the Pennsylvania Turnpike Commission
which shall include provisions setting forth

App. 111
the terms of the conversion of Interstate 80
to a toll road.
“Scheduled annual commission contribution.” The following amounts:
(1)

$750,000,000 in fiscal year 2007-2008.

(2)

$850,000,000 in fiscal year 2008-2009.

(3)

$900,000,000 in fiscal year 2009-2010.

(4) For fiscal year 2010-2011 and each
fiscal year thereafter, the amount shall be
the amount calculated for the previous year
increased by 2.5%, except that the amount
shall be equal to the annual base payments
plus $250,000,000 if the conversion notice is
not received by the secretary prior to the expiration of the conversion period.
Section 5. Section 8911 introductory paragraph
of Title 75 is amended and the section is amended by
adding a paragraph to read:
§ 8911.

Improvement and extension authorizations.

In order to facilitate vehicular traffic within and
across this Commonwealth, the commission is hereby
authorized and empowered to construct, operate and
maintain turnpike extensions and turnpike improvements at such specific locations and according to such
schedule as shall be deemed feasible and approved by
the commission, together with connecting roads, storm
water management systems, interchanges, slip
ramps, tunnels and bridges, subject to the waiver of

App. 112
the Federal toll prohibition provisions where applicable, as follows:
***
(10) Other slip ramps and interchanges
as the commission may determine.
Section 6. Section 8915 introductory paragraph
of Title 75 is amended to read:
§ 8915.

Conversion to toll roads.

In order to facilitate vehicular traffic within and
across this Commonwealth, and [after] to facilitate
the completion of the turnpike extensions and improvements authorized in section 8911 (relating to improvement and extension authorizations), and subject
to prior legislative approval by the General Assembly
and the United States Congress, the commission is
hereby authorized and empowered to convert to toll
roads such portions of Pennsylvania’s interstate highway system as may [be required in order to] facilitate
the completion of the turnpike extensions and improvements authorized in sections 8912 (relating to
subsequent extension authorizations), 8913 (relating
to additional subsequent extension authorizations)
and 8914 (relating to further subsequent authorizations) and to operate and maintain such converted
interstates as toll roads upon the approval by the Congress of the United States of America and the General
Assembly of this Commonwealth of legislation expressly permitting the conversion of such interstates
to toll roads. Such conversions shall take place at a
time and manner set forth in the plan for the

App. 113
conversion prepared by the commission with the cooperation of the department. The provisions authorizing the commission to construct, operate and
maintain the turnpike routes in sections 8911, 8912
and 8913 shall be subject to:
***
Section 7. Title 75 is amended by adding sections
to read:
§ 8915.1. Conversion of Interstate 80.
In order to facilitate vehicular traffic across
this Commonwealth, the commission is authorized and empowered to do all of the following:
(1) Convert Interstate 80 to a toll road
and maintain and operate it as a toll road.
(2) Construct, reconstruct, widen, expand, extend, maintain and operate Interstate 80 from a point at or near the Ohio
border to a point at or near the New Jersey
border, together with connecting roads, interchanges, slip ramps, tunnels and bridges.
(3) Issue turnpike revenue bonds, notes
or other obligations, payable solely from revenues of the commission, including tolls, or
from funds as may be available to the commission for that purpose, to pay the cost of
constructing, reconstructing, widening, expanding or extending Interstate 80 or any
other costs of Interstate 80 and the Pennsylvania Turnpike.

App. 114
(4) Provide quarterly reports and periodic updates regarding significant developments with respect to the conversion of
Interstate 80 to the chairman and minority
chairman of the Transportation Committee
of the Senate and the chairman and minority
chairman of the Transportation Committee
of the House of Representatives. These reports shall include, at a minimum, the status
of outstanding discussions with the United
States Department of Transportation regarding Interstate 80, the location and construction of tolling-related equipment for
Interstate 80, planned capital improvements
for Interstate
*

*

*

(2) Except as set forth in paragraph (3), any
difference in language between 74 Pa.C.S. Ch. 81
and the Turnpike Organization, Extension and
Toll Road Conversion Act is intended only to conform to the style of the Pennsylvania Consolidated
Statutes and is not intended to change or affect
the legislative intent, judicial construction or administration and implementation of the Turnpike
Organization, Extension and Toll Road Conversion Act.
(3) Paragraph (2) shall not apply to any of
the following:
(i)

In section 8102:

(A) Paragraphs (1), (6) and (7) of the
definition of “cost of the turnpikes.”

App. 115
(B) Paragraph (2) of the definition
of “turnpikes.”
(C) The definitions of “auditor general’s certificate,” “cost of the department,” “general reserve fund surplus,”
“public passenger transportation,” “rural
State highway system,” “secretary,” “State
highway,” and “system of public passenger transportation.”
(ii)

Section 8105(b) (2).

(iii) Section 8107(a)(9) and (10).
(iv) Section 8112(a)(1)(iii), (2) and (4),
(b)(2) and (c)(1).
(v)
(vi)
(vii)
Section 11.1.
July 1, 2007.

Section 8113.
Section 8114(c) and (d).
Section 8116.
This act shall apply retroactively to

Section 12. This act shall take effect immediately.
APPROVED – The 18th day of July, A. D. 2007.
EDWARD G. RENDELL

App. 116
Act 89*
TRANSPORTATION (74 PA.C.S.)
AND VEHICLE CODE (75 PA.C.S.) –
OMNIBUS AMENDMENTS
Act of Nov. 25, 2013, P.L. 974, No. 89 Cl. 74
Session of 2013
No. 2013-89
HB 1060
AN ACT
Amending Titles 74 (Transportation) and 75 (Vehicles)
of the Pennsylvania Consolidated Statutes by:
– In Title 74:
Providing for organization.
In administrative practice and procedure, further providing for minority and women-owned
business participation.
In sustainable mobility options:
further providing for definitions, for department authorization, for the Public Transportation Trust Fund, for application and
approval process, for executive and legislative
reports, for coordination, for asset improvement program, for Statewide programs and
for capital improvements program.

* A complete version of this document is available at:
http://www.legis.state.pa.us/cfdocs/legis/li/uconsCheck.cfm?yr=
2013&s essInd=0&act=89#

App. 117
Providing
funding.

for

multimodal

transportation

In airport operation and zoning, providing for
first class city consolidated car rental facilities.
In Turnpike:
further providing for commission; and
providing for annual hearing.
In Turnpike Commission standards of conduct, further providing for code of conduct.
Providing for traffic signals.
Establishing the Bridge Bundling Program.
Providing for public utility facilities.
Providing for steel painting.
In Public-Private Transportation Partnerships, further providing for applicability of other
laws.
– In Title 75:
In registration of vehicles:
further providing for period of registration, for display of registration plate and
for certain special plates.
Providing for report to General Assembly.
In licensing of drivers, further providing for
judicial review, for occupational limited license
and for probationary license.

App. 118
In commercial drivers, further providing for
fees. In financial responsibility, further providing
for required financial responsibility.
In fees:
further providing for limitation on local
license fees and taxes, for collection and disposition of fees and money, for motor homes,
for annual registration fees, for trucks and
truck tractors, for motor buses and limousines, for school buses and school vehicles, for
trailers, for special mobile equipment, for implements of husbandry, for farm vehicles, for
ambulances, taxis and hearses, for dealers
and miscellaneous motor vehicle business, for
farm equipment vehicle dealers, for transfer
of registration, for temporary and electronically issued registration plates, for replacement registration plates, for legislative
registration plates, for personal registration
plates, for street rod registration plates, for
duplicate registration cards and for commercial implements of husbandry;
providing for fee for local use; and
further providing for special hauling permits as to weight and size, for annual hauling
permits, for mobile homes, modular housing
units and modular housing undercarriages,
for books of permits, for refund of certain fees,
for driver’s license and learner’s permit, for
certificate of title, for security interest, for information concerning drivers and vehicles,
for certified copies of records, for uncollectible checks, for certificate of inspection, for

App. 119
messenger service, for reinstatement of operating privilege or vehicle registration and for
secure power of attorney.
In motor carriers road tax identification
markers:
further providing for identification
markers and license or road tax registration card required.
In general provisions, further providing
for obedience to traffic-control devices.
In rules of the road, further providing for
maximum speed limits and for alteration of
maximum limits.
In size, weight and load, further providing for restrictions on use of highways and
bridges, for conditions of permits and security
for damages and for permit for movement during course of manufacturing.
In powers of department and local authorities:
further providing for regulation of
traffic on Turnpike; and
providing for fare evasion and for
municipal police officer education and
training.
In penalties and disposition of fines, further providing for surcharge.

App. 120
In the Pennsylvania Turnpike, further
providing for definitions and for deposit and
distribution of funds.
In liquid fuels and fuels tax:
further providing for definitions, for
imposition, exemptions and deductions,
for distributor’s report and payment, for
disposition and use and for refunds; and
providing for application of Prevailing Wage Act to locally funded highway
and bridge projects.
In State highway maintenance, further
providing for dirt and gravel road maintenance.
In supplemental funding for municipal
highway maintenance, making further provisions.
In taxes for highway maintenance and
construction, further providing for imposition
and for allocation of proceeds.
– Providing for permits for movement of raw
milk.
– Providing for amendment of lease agreements.
– Providing for authorization to incur additional debt and appropriations.
– Making an appropriation.
– Making repeals.

App. 121
The General Assembly finds and declares as follows:
(1) It is the purpose of this act to ensure that
a safe and reliable system of transportation is
available to the residents of this Commonwealth.
(2) The Commonwealth’s transportation
system includes nearly 40,000 miles of roads and
25,000 bridges owned by the Commonwealth,
nearly 77,000 miles of roads and 12,000 bridges
owned by counties and municipal governments, 36
fixed-route public transportation agencies, 67 railroads, 133 public-use airports, the Ports of Erie,
Philadelphia and Pittsburgh and numerous bicycle and pedestrian facilities.
(3) The Commonwealth’s transportation
system provides for access to employment, educational services, medical care and other lifesustaining services for all residents of this
Commonwealth, including senior citizens and people with disabilities.
(4) The Department of Transportation of the
Commonwealth has indicated that 9,000 miles of
roads owned by the Commonwealth are in poor
condition and that 4,400 bridges owned by the
Commonwealth are rated structurally deficient.
The State Transportation Advisory Committee
has indicated that 2,189 bridges exceeding 20 feet
in length owned by counties and municipalities
are rated structurally deficient.
(5) There is urgent public need to reduce
congestion, increase capacity, improve safety and

App. 122
promote economic efficiency of transportation facilities throughout this Commonwealth.
(6) The Commonwealth has limited resources to fund the maintenance and expansion of
its transportation facilities.
(7) The State Transportation Advisory Committee reported in 2010 that the Commonwealth’s
transportation system is underfunded by
$3,500,000,000 and projected that amount will
grow to $6,700,000,000 by 2020 without additional
financial investment by the Commonwealth.
(8) To ensure the needs of the public are adequately addressed, funding mechanisms must be
enhanced to sustain the Commonwealth’s transportation system in the future.
(9) The utilization of user fees establishes a
funding source for transportation needs that
spreads the costs across those who benefit from
the Commonwealth’s transportation system.
(10) Pursuant to section 11 of Article VIII of
the Constitution of Pennsylvania, all highway and
bridge user fees must be used solely for construction, reconstruction, maintenance and repair of
and safety on public highways and bridges and
costs and expenses incident thereto.
(11) In order to ensure a safe and reliable
system of public transportation, aviation, ports,
rail and bicycle and pedestrian facilities, other
transportation-related user fees must be deposited in the Public Transportation Trust Fund and
the Multimodal Transportation Fund.

App. 123
(12) In furtherance of the Commonwealth’s
energy policy, which includes becoming independent from overreliance on foreign energy sources,
programs must be established to promote reliance
on or conversion to alternative energy sources, including the vast natural gas supply of this Commonwealth.
(13) The Department of Transportation is
responsible for the operation of the Commonwealth’s transportation system, including administration, driver and vehicle services, highway
administration, multimodal transportation and
planning. To this end, the department is charged
with the registration of vehicles, including the issuance and proper mounting of license plates and
special registration plates and assessing those
costs and financial impact and ensuring road
safety and movement by the posting of maximum
speed limits on highways.
(14) Recognition and furtherance of all these
elements is essential to promoting the health,
safety and welfare of the citizens of this Commonwealth.
The General Assembly of the Commonwealth of
Pennsylvania hereby enacts as follows:
Section 1. Title 74 of the Pennsylvania Consolidated Statutes is amended by adding a chapter to read:

App. 124
CHAPTER 2
ORGANIZATION
Sec.
201. Definitions.
202. Deputy secretaries.
§ 201. Definitions.
The following words and phrases when used
in this chapter shall have the meanings given to
them in this section unless the context clearly indicates otherwise:
“Department.” The Department of Transportation of the Commonwealth.
“Secretary.” The Secretary of Transportation
of the Commonwealth.
§ 202. Deputy secretaries.
(a) Appointment. – The secretary shall appoint the following deputy secretaries:
(1)
tion.

Deputy Secretary for Administra-

(2) Deputy Secretary for Driver and Vehicle Services.
(3) Deputy Secretary for Highway Administration.
(4) Deputy Secretary for Multimodal
Transportation.
(5)

Deputy Secretary for Planning.

(b) Administration. – The Deputy Secretary
for Administration has the powers and duties of

App. 125
the department under law relating to all of the
following:
(1)
(2)
ment.

Fiscal affairs.
Operations analysis and improve-

(3)

Information services.

(4)

Office services.

(5)

Human resources.

(6)

Equal opportunity.

(c) Driver and vehicle services. – The Deputy Secretary for Driver and Vehicle Services
has the powers and duties of the department under law relating to all of the following:
(1)

Drivers.

(2)

Vehicles.

(3)

Vehicle and driver safety.

(4) Services for other modes of transportation.
(d) Highway administration. – The Deputy
Secretary for Highway Administration has the
powers and duties of the department under law
relating to all of the following:
(1)

Design of highways and bridges.

(2) Land acquisition for highways and
bridges.
(3) Construction and reconstruction of
highways and bridges.

App. 126
(4) Maintenance and operation of highways and bridges.
(5)

Highway and bridge safety.

(e) Multimodal transportation. – The Deputy Secretary for Multimodal Transportation
has the powers and duties of the department under law relating to modes of transportation
other than highways, except recreational boating and ferry licensing, including all of the following:
(1)

Local and public transportation.

(2)

Rail freight.
*

*

*

(8) Upon conviction, in a city of the first
class, of any violation of this title, a surcharge of
$10.
(9) Upon conviction of any violation of this
title in a city of the second class, a surcharge of
$10.
The provisions of this subsection shall not apply to any
violation committed by the operator of a motorcycle,
motor-driven cycle, pedalcycle, motorized pedalcycle or
recreational vehicle not intended for highway use.
(b)

Disposition. –

(1) Notwithstanding any other statutory provision:
(i) All surcharges levied and collected under subsection (a)(1) by any division of the unified judicial system shall

App. 127
be remitted to the Commonwealth for deposit in the General Fund.
(ii) All surcharges levied and collected under subsections (a)(2), (3), (4),
(5), (6) and (7) by any division of the unified judicial system shall be remitted to
the Commonwealth for deposit in the
Public Transportation Trust Fund.
(iii) All surcharges levied and collected under subsection (a)(8) and (9) by
any division of the unified judicial system shall be remitted to the appropriate
towing and storage agent as set forth in
section 6309.2(e) (relating to immobilization, towing and storage of vehicle for
driving without operating privileges or
registration) for purposes of funding its
costs associated with Subchapter A of
Chapter 63 (relating to general provisions).
(iv) If the fines, fees or penalties are
being paid in installments, the surcharge
shall be remitted on each installment on
a pro rata basis.
(2)

(Reserved).

Section 36. The definitions of “annual additional
payments,” “annual base payments” and “scheduled
annual commission contribution” in section 8901 of Title 75 are amended to read:

App. 128
§ 8901.

Definitions.

The following words and phrases when used in
this chapter shall have the meanings given to them in
this section unless the context clearly indicates otherwise:
“Annual additional payments.” As follows:
(1) During the conversion period and after
the conversion date, an amount equal to the scheduled annual commission contribution, minus the
sum of:
(i) $200,000,000 paid as annual base
payments;
(ii) any Interstate 80 savings for that
fiscal year.
(2) If the conversion period has expired and
a conversion notice has not been received by the
secretary, in each subsequent fiscal year until the
end of the term of the lease agreement, the annual
additional payments shall be $250,000,000. No
annual additional payments shall be due after fiscal year 2021-2022.
“Annual base payments.” An amount equal to the
sum of the following:
(1) Annual debt service on outstanding
bonds issued under section 9511.2 (relating to special revenue bonds) payable as required pursuant
to the bonds.
(2) Two hundred million dollars payable annually through fiscal year 2021-2022 in four

App. 129
equal installments each due the last business day
of each July, October, January and April.
(3) For fiscal year 2022-2023 and each
fiscal year thereafter, the amount shall be
$50,000,000 payable annually from thencurrent revenue.
***
“Scheduled annual commission contribution.” The
following amounts:
(1)

$750,000,000 in fiscal year 2007-2008.

(2)

$850,000,000 in fiscal year 2008-2009.

(3)

$900,000,000 in fiscal year 2009-2010.

(4) For fiscal year 2010-2011 [and each fiscal
year thereafter] through fiscal year 2021-2022,
the amount shall be the amount calculated for the
previous year increased by 2.5%, except that the
amount shall be equal to the annual base payments plus $250,000,000 if the conversion notice
is not received by the secretary prior to the expiration of the conversion period. For fiscal year
2014-2015 and each fiscal year thereafter
through fiscal year 2021-2022, at least
$30,000,000 of this amount shall be paid from
then-current revenue.
(5) For fiscal year 2022-2023 and each
fiscal year thereafter, the amount shall be
$50,000,000 payable annually from thencurrent revenue.

App. 130
Section 37. Section 8915.6(a) of Title 75 is
amended to read:
§ 8915.6.

Deposit and distribution of funds.
*

*

*

1961.
(6) The amendment or addition of 75 Pa.C.S.
§§ 1307(g), 1332(d) and 1911 shall take effect December 31, 2016.
(7) The addition of 75 Pa.C.S. § 1332(a.1)
shall take effect in 90 days.
(8) The remainder of this act shall take effect in 60 days.
APPROVED – The 25th day of November, A.D. 2013.
TOM CORBETT

App. 131
23 U.S.C.A. § 129 (Current)
§ 129. Toll roads, bridges, tunnels, and ferries
(a)

Basic program. –
(1) Authorization for Federal participation.
– Subject to the provisions of this section, Federal
participation shall be permitted on the same basis
and in the same manner as construction of tollfree highways is permitted under this chapter in
the –
(A) initial construction of a toll highway,
bridge, or tunnel or approach to the highway,
bridge, or tunnel;
(B) initial construction of 1 or more lanes or
other improvements that increase capacity of
a highway, bridge, or tunnel (other than a
highway on the Interstate System) and conversion of that highway, bridge, or tunnel to a
tolled facility, if the number of toll-free lanes,
excluding auxiliary lanes, after the construction is not less than the number of toll-free
lanes, excluding auxiliary lanes, before the
construction;
(C) initial construction of 1 or more lanes or
other improvements that increase the capacity of a highway, bridge, or tunnel on the Interstate System and conversion of that
highway, bridge, or tunnel to a tolled facility,
if the number of toll-free non-HOV lanes, excluding auxiliary lanes, after such construction is not less than the number of toll-free
non-HOV lanes, excluding auxiliary lanes, before such construction;

App. 132
(D) reconstruction, resurfacing, restoration,
rehabilitation, or replacement of a toll highway, bridge, or tunnel or approach to the highway, bridge, or tunnel;
(E) reconstruction or replacement of a tollfree bridge or tunnel and conversion of the
bridge or tunnel to a toll facility;
(F) reconstruction of a toll-free Federal-aid
highway (other than a highway on the Interstate System) and conversion of the highway
to a toll facility;
(G) reconstruction, restoration, or rehabilitation of a highway on the Interstate System
if the number of toll-free non-HOV lanes, excluding auxiliary lanes, after reconstruction,
restoration, or rehabilitation is not less than
the number of toll-free non-HOV lanes, excluding auxiliary lanes, before reconstruction,
restoration, or rehabilitation;
(H) conversion of a high occupancy vehicle
lane on a highway, bridge, or tunnel to a toll
facility; and
(I) preliminary studies to determine the feasibility of a toll facility for which Federal participation is authorized under this paragraph.
(2) Ownership. – Each highway, bridge, tunnel,
or approach to the highway, bridge, or tunnel constructed under this subsection shall –
(A)

be publicly owned; or

(B) be privately owned if the public authority with jurisdiction over the highway, bridge,

App. 133
tunnel, or approach has entered into a contract with 1 or more private persons to design,
finance, construct, and operate the facility and
the public authority will be responsible for
complying with all applicable requirements of
this title with respect to the facility.
(3)

Limitations on use of revenues. –
(A) In general. – A public authority with
jurisdiction over a toll facility shall ensure
that all toll revenues received from operation
of the toll facility are used only for –
(i) debt service with respect to the projects on or for which the tolls are authorized, including funding of reasonable
reserves and debt service on refinancing;
(ii) a reasonable return on investment
of any private person financing the project, as determined by the State or interstate compact of States concerned;
(iii) any costs necessary for the improvement and proper operation and
maintenance of the toll facility, including
reconstruction, resurfacing, restoration,
and rehabilitation;
(iv) if the toll facility is subject to a public-private partnership agreement, payments that the party holding the right to
toll revenues owes to the other party under the public-private partnership agreement; and

App. 134
(v) if the public authority certifies annually that the tolled facility is being adequately maintained, any other purpose
for which Federal funds may be obligated
by a State under this title.
(B)

Annual audit. –
(i) In general. – A public authority
with jurisdiction over a toll facility shall
conduct or have an independent auditor
conduct an annual audit of toll facility
records to verify adequate maintenance
and compliance with subparagraph (A),
and report the results of the audits to the
Secretary.
(ii) Records. – On reasonable notice,
the public authority shall make all records of the public authority pertaining to
the toll facility available for audit by the
Secretary.

(C) Noncompliance. – If the Secretary
concludes that a public authority has not complied with the limitations on the use of revenues described in subparagraph (A), the
Secretary may require the public authority to
discontinue collecting tolls until an agreement with the Secretary is reached to achieve
compliance with the limitation on the use of
revenues described in subparagraph (A).
(4)

Special rule for funding. –
(A) In general. – In the case of a toll facility
under the jurisdiction of a public authority of
a State (other than the State transportation

App. 135
department), on request of the State transportation department and subject to such terms
and conditions as the department and public
authority may agree, the Secretary, working
through the State department of transportation, shall reimburse the public authority for
the Federal share of the costs of construction
of the project carried out on the toll facility
under this subsection in the same manner
and to the same extent as the department
would be reimbursed if the project was being
carried out by the department.
(B) Source. – The reimbursement of funds
under this paragraph shall be from sums apportioned to the State under this chapter and
available for obligations on projects on the
Federal-aid highways in the State on which
the project is being carried out.
(5) Limitation on Federal share. – The Federal share payable for a project described in paragraph (1) shall be a percentage determined by the
State, but not to exceed 80 percent.
(6) Modifications. – If a public authority (including a State transportation department) with
jurisdiction over a toll facility subject to an agreement under this section or section 119(e), as in effect on the day before the effective date of title I of
the Intermodal Surface Transportation Efficiency
Act of 1991 (105 Stat. 1915), requests modification of the agreement, the Secretary shall modify
the agreement to allow the continuation of tolls in
accordance with paragraph (3) without repayment
of Federal funds.

App. 136
(7)

Loans. –
(A)

In general. –
(i) Loans. – Using amounts made
available under this title, a State may
loan to a public or private entity constructing or proposing to construct under
this section a toll facility or non-toll facility with a dedicated revenue source an
amount equal to all or part of the Federal
share of the cost of the project if the project has a revenue source specifically dedicated to the project.
(ii) Dedicated revenue sources. –
Dedicated revenue sources for non-toll facilities include excise taxes, sales taxes,
motor vehicle use fees, tax on real property, tax increment financing, and such
other dedicated revenue sources as the
Secretary determines appropriate.

(B) Compliance with Federal laws. – As
a condition of receiving a loan under this paragraph, the public or private entity that receives the loan shall ensure that the project
will be carried out in accordance with this title and any other applicable Federal law, including any applicable provision of a Federal
environmental law.
(C) Subordination of debt. – The amount
of any loan received for a project under this
paragraph may be subordinated to any other
debt financing for the project.

App. 137
(D) Obligation of funds loaned. – Funds
loaned under this paragraph may only be obligated for projects under this paragraph.
(E) Repayment. – The repayment of a loan
made under this paragraph shall commence
not later than 5 years after date on which the
facility that is the subject of the loan is open
to traffic.
(F) Term of loan. – The term of a loan
made under this paragraph shall not exceed
30 years from the date on which the loan
funds are obligated.
(G) Interest. – A loan made under this paragraph shall bear interest at or below market
interest rates, as determined by the State, to
make the project that is the subject of the loan
feasible.
(H) Reuse of funds. – Amounts repaid to a
State from a loan made under this paragraph
may be obligated –
(i) for any purpose for which the loan
funds were available under this title; and
(ii) for the purchase of insurance or for
use as a capital reserve for other forms of
credit enhancement for project debt in order to improve credit market access or to
lower interest rates for projects eligible
for assistance under this title.
(I) Guidelines. – The Secretary shall establish procedures and guidelines for making
loans under this paragraph.

App. 138
(8) State law permitting tolling. – If a State
does not have a highway, bridge, or tunnel toll facility as of the date of enactment of the MAP-21,
before commencing any activity authorized under
this section, the State shall have in effect a law
that permits tolling on a highway, bridge, or tunnel.
(9) Equal access for over-the-road buses. –
An over-the-road bus that serves the public shall
be provided access to a toll facility under the same
rates, terms, and conditions as public transportation buses.
(10) Definitions. – In this subsection, the following definitions apply:
(A) High occupancy vehicle; HOV. – The
term “high occupancy vehicle” or “HOV”
means a vehicle with not fewer than 2 occupants.
(B)

Initial construction. –
(i) In general. – The term “initial construction” means the construction of a
highway, bridge, tunnel, or other facility
at any time before it is open to traffic.
(ii) Exclusions. – The term “initial
construction” does not include any improvement to a highway, bridge, tunnel,
or other facility after it is open to traffic.

(C) Over-the-road bus. – The term “overthe-road bus” has the meaning given the term
in section 301 of the Americans with Disabilities Act of 1990 (42 U.S.C. 12181).

App. 139
(D) Public authority. – The term “public
authority” means a State, interstate compact
of States, or public entity designated by a
State.
(E) Toll facility. – The term “toll facility”
means a toll highway, bridge, or tunnel or approach to the highway, bridge, or tunnel constructed under this subsection.
(b) Notwithstanding the provisions of section 301 of
this title, the Secretary may permit Federal participation under this title in the construction of a project constituting an approach to a ferry, whether toll or free,
the route of which is a public road and has not been
designated as a route on the Interstate System. Such
ferry may be either publicly or privately owned and operated, but the operating authority and the amount of
fares charged for passage shall be under the control of
a State agency or official, and all revenues derived
from publicly owned or operated ferries shall be applied to payment of the cost of construction or acquisition thereof, including debt service, and to actual and
necessary costs of operation, maintenance, repair, and
replacement.
(c) Notwithstanding section 301 of this title, the Secretary may permit Federal participation under this title in the construction of ferry boats and ferry terminal
facilities, whether toll or free, subject to the following
conditions:
(1) It is not feasible to build a bridge, tunnel,
combination thereof, or other normal highway
structure in lieu of the use of such ferry.

App. 140
(2) The operation of the ferry shall be on a route
classified as a public road within the State and
which has not been designated as a route on the
Interstate System or on a public transit ferry eligible under chapter 53 of title 49. Projects under
this subsection may be eligible for both ferry boats
carrying cars and passengers and ferry boats carrying passengers only.
(3)(A) The ferry boat or ferry terminal facility
shall be publicly owned or operated or majority
publicly owned if the Secretary determines with
respect to a majority publicly owned ferry or ferry
terminal facility that such ferry boat or ferry terminal facility provides substantial public benefits.
(B) Any Federal participation shall not involve
the construction or purchase, for private ownership, of a ferry boat, ferry terminal facility, or other
eligible project under this section.
(4) The operating authority and the amount of
fares charged for passage on such ferry shall be
under the control of the State or other public entity, and all revenues derived therefrom shall be
applied to actual and necessary costs of operation,
maintenance, repair, debt service, negotiated management fees, and, in the case of a privately operated toll ferry, for a reasonable rate of return.
(5) Such ferry may be operated only within the
State (including the islands which comprise the
State of Hawaii and the islands which comprise
any territory of the United States) or between adjoining States or between a point in a State and a
point in the Dominion of Canada. Except with respect to operations between the islands which

App. 141
comprise the State of Hawaii, operations between
the islands which comprise any territory of the
United States, operations between a point in a
State and a point in the Dominion of Canada, and
operations between any two points in Alaska and
between Alaska and Washington, including stops
at appropriate points in the Dominion of Canada,
no part of such ferry operation shall be in any foreign or international waters.
(6) The ferry service shall be maintained in accordance with section 116.
(7)(A) No ferry boat or ferry terminal with Federal participation under this title may be sold,
leased, or otherwise disposed of, except in accordance with part 200 of title 2, Code of Federal Regulations.
(B) The Federal share of any proceeds from a
disposition referred to in subparagraph (A) shall
be used for eligible purposes under this title.

App. 142
U.S. Code § 301.Freedom from tolls
Except as provided in section 129 of this title with
respect to certain toll bridges and toll tunnels, all highways constructed under the provisions of this title
shall be free from tolls of all kinds.

App. 143
United States Constitution
Article I, Section 8, Clause 3
(Commerce Clause)
The Congress shall have Power . . . To regulate
Commerce with foreign Nations, and among the several States, and with the Indian Tribes.
United States Constitution
Article IV, Section 2, Clause 1
(Privileges and Immunities)
The Citizens of each State shall be entitled to all
Privileges and Immunities of Citizens in the several
States.

United States Constitution
Amendment XIV, Section 1
(Due Process)
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.

App. 144
Excerpt from Intermodal Surface
Transportation Act of 1991
(PL 102-240, 105 Stat 1914 (1991))
Codified at 23 U.S.C. § 129
SEC. 1012. TOLL ROADS, BRIDGES, AND TUNNELS.
<< 23 USCA § 129 >>
(a) NEW PROGRAM.—Section 129(a) of title 23,
United States Code, is amended to read as follows:
“(a)

BASIC PROGRAM.—

“(1) AUTHORIZATION FOR FEDERAL PARTICIPATION.—Notwithstanding section 301 of this title
and subject to the provisions of this section, the Secretary shall permit Federal participation in—
“(A) initial construction of a toll highway, bridge, or
tunnel (other than a highway, bridge, or tunnel on the
Interstate System) or approach thereto;
“(B) reconstructing, resurfacing, restoring, and rehabilitating a toll highway, bridge, or tunnel (including a
toll highway, bridge, or tunnel subject to an agreement
entered into under this section or section 119(e) as in
effect on the day before the date of the enactment of
the Intermodal Surface Transportation Efficiency Act
of 1991) or approach thereto;
“(C) reconstruction or replacement of a toll-free
bridge or tunnel and conversion of the bridge or tunnel
to a toll facility;

App. 145
“(D) reconstruction of a toll-free Federal-aid highway
(other than a highway on the Interstate System) and
conversion of the highway to a toll facility; and
“(E) preliminary studies to determine the feasibility
of a toll facility for which Federal participation is authorized under subparagraph (A), (B), (C), or (D);
on the same basis and in the same manner as in the
construction of free highways under this chapter.
“(2) OWNERSHIP.—Each highway, bridge, tunnel, or
approach thereto constructed under this subsection
must—
“(A)

be publicly owned, or

“(B) be privately owned if the public authority having
jurisdiction over the highway, bridge, tunnel, or approach has entered into a contract with a private person or persons to design, finance, construct, and
operate the facility and the public authority will be responsible for complying with all applicable requirements of this title with respect to the facility.
“(3) LIMITATIONS ON USE OF REVENUES.—Before the Secretary may permit Federal participation
under this subsection in construction of a highway,
bridge, or tunnel located in a State, the public authority (including the State transportation department)
having jurisdiction over the highway, bridge, or tunnel
must enter into an agreement with the Secretary
which provides that all toll revenues received from operation of the toll facility will be used first for debt service, for reasonable return on investment of any

App. 146
private person financing the project, and for the costs
necessary for the proper operation and maintenance of
the toll facility, including reconstruction, resurfacing,
restoration, and rehabilitation. If the State certifies
annually that the tolled facility is being adequately
maintained, the State may use any toll revenues in excess of amounts required under the preceding sentence
for any purpose for which Federal funds may be obligated by a State under this title.
“(4) SPECIAL RULE FOR FUNDING.—In the case
of a toll highway, bridge, or tunnel under the jurisdiction of a public authority of a State (other than the
State transportation department), upon request of the
State transportation department and subject to such
terms and conditions as such department and public
authority may agree, the Secretary shall reimburse
such public authority for the Federal share of the costs
of construction of the project carried out on the toll facility under this subsection in the same manner and to
the same extent as such department would be reimbursed if such project was being carried out by such
department. The reimbursement of funds under this
paragraph shall be from sums apportioned to the State
under this chapter and available for obligations on projects on the Federal-aid system in such State on which
the project is being carried out.
“(5) LIMITATION ON FEDERAL SHARE.—Except
as otherwise provided in this paragraph, the Federal
share payable for construction of a highway, bridge,
tunnel, or approach thereto or conversion of a highway,
bridge, or tunnel to a toll facility under this subsection

App. 147
shall be such percentage as the State determines but
not to exceed 50 percent. The Federal share payable for
construction of a new bridge, tunnel, or approach
thereto or for reconstruction or replacement of a
bridge, tunnel, or approach thereto shall be such percentage as the Secretary determines but not to exceed
80 percent. In the case of a toll facility subject to an
agreement under section 119 or 129, the Federal share
payable on any project for resurfacing, restoring, rehabilitating, or reconstructing such facility shall be 80
percent until the scheduled expiration of such agreement (as in effect on the day before the date of the enactment of the Intermodal Surface Transportation
Efficiency Act of 1991).
“(6) MODIFICATIONS.—If a public authority (including a State transportation department) having jurisdiction over a toll highway, bridge, or tunnel subject
to an agreement under this section or section 119(e),
as in effect on the day before the effective date of title
I of the Intermodal Surface Transportation Efficiency
Act of 1991, requests modification of such agreement,
the Secretary shall modify such agreement to allow the
continuation of tolls in accordance with paragraph (3)
without repayment of Federal funds.
“(7) LOANS.—A State may loan all or part of the Federal share of a toll project under this section to a public
or private agency constructing a toll facility. Such loan
may be made only after all Federal environmental requirements have been complied with and permits obtained. The amount loaned shall be subordinated to
other debt financing for the facility except for loans

App. 148
made by the State or any other public agency to the
agency constructing the facility. Funds loaned pursuant to this section may be obligated for projects eligible
under this section. The repayment of any such loan
shall commence not more than 5 years after the facility
has opened to traffic. Any such loan shall bear interest
at the average rate the State’s pooled investment fund
earned in the 52 weeks preceding the start of repayment. The term of any such loan shall not exceed 30
years from the time the loan was obligated. Amounts
repaid to a State from any loan made under this section may be obligated for any purpose for which the
loaned funds were available. The Secretary shall establish procedures and guidelines for making such loans.
“(8) INITIAL CONSTRUCTION DEFINED.—For
purposes of this subsection, the term ‘initial construction’ means the construction of a highway, bridge, or
tunnel at any time before it is open to traffic and does
not include any improvement to a highway, bridge, or
tunnel after it is open to traffic.”.

